   FEDERAL DEPOSIT INSURANCE CORPORATION




                April 1, 2008 – September 30, 2008


                            Office of
                            Inspector General

                            Semiannual Report
                            to the
                            Congress
Including the Office of
Inspector General’s
Performance Report for
Fiscal Year 2008
The Federal Deposit Insurance Corporation (FDIC) is an independent
agency created by the Congress to maintain stability and confidence in
the nation’s banking system by insuring deposits, examining and super-
vising financial institutions, and managing receiverships. Approximately
4,800 individuals within seven specialized operating divisions and other
offices carry out the FDIC mission throughout the country. According to
most current FDIC data, the FDIC insured $4.54 trillion in deposits for
8,384 institutions, of which the FDIC supervised 5,134. The Corporation
held insurance funds of $34.6 billion to ensure depositors are safeguarded.
                                         Inspector General
                                         Statement




T
The Federal Deposit Insurance            companies and individual inves-      mortgage lenders, the securitiza-
Corporation (FDIC) proudly               tors; and the federal government     tion industry, servicers, consumer
celebrated its 75th anniversary on       has taken control of two firms       groups, other regulators, and
June 16, 2008. For three quarters of     involved in the secondary mort-      the Congress on steps to reduce
a century, the FDIC has protected        gage markets and another insur-      unnecessary foreclosures through
insured depositors and brought           ance and financial services giant.   such measures as implementing
stability to the banking system.         Around the globe, confidence in      the Hope for Homeowners Act
Amidst the current turmoil in the        financial systems has been shaken.   and proposing loan modifica-
nation’s economy and the resulting       The Secretary of the Treasury        tions for troubled borrowers.
liquidity crisis, the FDIC has           proposed a plan to address the       Recent events have correspond-
persevered in its mission, risen to      financial unrest, and the Congress   ingly touched many facets of
meet new challenges, and helped          passed landmark legislation          the Office of Inspector General’s
maintain the public’s confidence         that the President signed as the     (OIG) operations. To illustrate,
during these extraordinary times.        Emergency Economic Stabilization     we took a number of proactive
The events of the past 6 months          Act of 2008 on October 3, 2008.      steps to prepare for the statutorily
                are unprecedented.       While the vast majority of FDIC-     mandated reviews that we must
                During May two           regulated institutions remain safe   conduct when an FDIC-regulated
                institutions failed,     and sound, all of these events       institution fails and the Deposit
                and in July came         have had a profound impact           Insurance Fund incurs a material
                the largest failure in   on the FDIC mission, opera-          loss, defined as a loss exceeding
                recent years—that        tions, and workforce. The FDIC       the greater of $25 million or 2
                of IndyMac Bank,         has met its deposit insurance        percent of the failed institution’s
                F.S.B., in Pasadena      responsibilities; continued its      assets at closing. Our office led the
                California, causing      supervision and examination of       other financial regulatory OIGs in
                an $8.9 billion loss     banks; carried out its resolution    formulating a standard approach
                to the Deposit           and receivership workload; and       to conducting these reviews,
                Insurance Fund. Ten      participated in several actions      developed a training program
additional failures occurred after       by the Congress, the Treasury        to ensure needed OIG expertise
IndyMac, bringing the total in 2008      Department, and other federal        for material loss review work,
as of the end of October to 17.          regulators designed to restore       and loaned FDIC OIG staff to the
Home foreclosures have steadily          confidence in insured financial      Department of the Treasury OIG
increased; credit markets have           institutions. These have included    to assist in that office’s material
tightened; weakened financial            temporarily increasing deposit       loss review of IndyMac Bank.
firms have merged with stronger          insurance coverage and providing     Now more than ever, the OIG
rivals; troubled banks have been         guarantees to new, senior unse-      must remain responsive to the
absorbed by other already huge           cured debt issued by banks,          volatile environment, and our
competitors; losses in the stock         thrifts, or holding companies.       guiding principle will be flex-
market have taken a toll on              The FDIC has also worked with        ibility. This flexibility will manifest
                                                                                                                        1
itself in the nature of the work        recoveries. A significant portion      There is no doubt that the future
we conduct, the cross-functional        of our investigative workload          will continue to pose formidable
teams we assign to projects, and        relates to mortgage fraud, and we      challenges to the FDIC, and there
the approaches we take in plan-         are pleased to partner with the        is no single or simple solution to
ning and conducting work and            Department of Justice, the Federal     fix current market turmoil. On
reporting results. Most impor-          Bureau of Investigation, and other     this, the 30th anniversary of the
tantly, we are taking all possible      law enforcement colleagues in          creation of IGs, we recommit to
steps to ensure that our staff          successfully combating such            carrying out the IG mission and
is positioned to add maximum            fraud throughout the country.          working with the Congress, the
value through audits, evaluations,                                             FDIC, and other stakeholders as we
                                        Like the FDIC, the Inspector
and investigations; offer unique                                               tackle the complex issues of these
                                        General (IG) community also
and independent perspectives                                                   uncertain and changing times.
                                        marked an anniversary recently, for
on efficiency and effectiveness;        30 years ago, on October 12, 1978,
and play a key part in ensuring         the IG Act was signed. In keeping
the longstanding tradition of           with an environment of continual
integrity and transparency in the       change, on October 14, 2008,
regulatory activities of the FDIC.      the IG Reform Act of 2008 was          Jon T. Rymer
This semiannual report looks back       signed by the President. Among
on the 15 audits and evaluations        other provisions, this legislation     Inspector General
that we completed over the past         strengthens IG independence, and       October 31, 2008
6-month period and the projects         combines the President’s Council
that other units in the office under-   on Integrity and Efficiency and the
took in support of that work. It        Executive Council on Integrity and
also references some of our more        Efficiency in a new, unified Council
recently initiated work, such as        that will focus on cross-cutting
the five material loss reviews that     issues and training for more than
we have initiated as of the end         12,000 OIG staff in the federal
of October. Our investigations          government. We look forward to
this period led to 45 indictments/      working with our colleagues in the
informations; 61 convictions;           community as the new Council
and nearly $353 million in fines,       charts its course in the days ahead.
restitution, and other monetary




2
Table of Contents




Inspector General’s Statement.........................................................................1
Abbreviations and Acronyms............................................................................4
Highlights and Outcomes..................................................................................5
Strategic Goal Areas
Supervision: Assist the FDIC to Ensure the Nation’s
Banks Operate Safely and Soundly.................................................................9
Insurance: Help the FDIC Maintain the Viability of the
Insurance Fund.................................................................................................... 21
Consumer Protection: Assist the FDIC to Protect
Consumer Rights and Ensure Customer Data
Security and Privacy........................................................................................... 23
Receivership Management: Help Ensure that the FDIC
is Ready to Resolve Failed Banks and Effectively
Manages Receiverships.................................................................................... 27
Resources Management: Promote Sound Governance
and Effective Stewardship and Security of Human,
Financial, Information Technology, and Physical Resources.............. 32
OIG Internal Processes: Build and Sustain a
High-Quality OIG Staff, Effective Operations,
OIG Independence, and Mutually Beneficial
Working Relationships...................................................................................... 40
Fiscal Year 2008 Performance Report.......................................................... 46
Reporting Requirements................................................................................. 53
Information Required by the Inspector General Act of 1978,
as amended........................................................................................................... 54
Congratulations and Farewell........................................................................ 59




                                                                                                                      3
    Abbreviations and Acronyms
    BIS	      Business Information Systems
    BOA	      Basic Ordering Agreement
    BSA	      Bank Secrecy Act
    CDC	      Finding Dreams In Children Child Development Centers, Inc.
    DIF	      Deposit Insurance Fund
    DIT	      Division of Information Technology
    DOA	      Division of Administration
    DOF	      Division of Finance
    DRR	      Division of Resolutions and Receiverships
    DSC	      Division of Supervision and Consumer Protection
    ECIE	     Executive Council on Integrity and Efficiency
    ECU	      Electronic Crimes Unit
    EIC	      Examiner-in-Charge
    FBI	      Federal Bureau of Investigation
    FCFS	     Franklin County Financial Services
    FDIC	     Federal Deposit Insurance Corporation
    FISMA	    Federal Information Security Management Act of 2002
    FY	       fiscal year
    GAO	      U.S. Government Accountability Office
    GPRA	     Government Performance and Results Act of 1993
    HELOC	    home equity line of credit
    IG	       Inspector General
    IRS	      Internal Revenue Service
    IT	       Information Technology
    KPMG	     KPMG, LLP
    OERM	     Office of Enterprise Risk Management
    OFAC	     Office of Foreign Assets Control
    OI	       Office of Investigations
    OIG	      Office of Inspector General
    OM	       Oversight Manager
    OMB	      Office of Management and Budget
    PCIE	     President’s Council on Integrity and Efficiency
    ROE	      Report of Examination
    SCT	      Secured Capital Trust
    ViSION	   Virtual Supervisory Information on the Net




4
                                       Highlights and
                                       Outcomes




T
The OIG’s 2008 Business Plan           CAMELS ratings. Ongoing work          and outreach with the Division
contains five strategic goals that     in support of this goal included      of Supervision and Consumer
are closely linked to the FDIC’s       four material loss reviews of         Protection (DSC), the Division of
mission, programs, and activities,     failed FDIC-regulated banks.          Resolutions and Receiverships,
and one that focuses on the OIG’s                                            and the Legal Division by way of
                                       With respect to investigative work,
internal business and manage-                                                attending quarterly meetings,
                                       as a result of cooperative efforts
ment processes. These highlights                                             regional training forums, and
                                       with U.S. Attorneys throughout
show our progress in meeting                                                 regularly scheduled meetings
                                       the country, numerous individuals
these goals during the reporting                                             with DSC and the Legal Division
                                       were prosecuted for financial
period. A more in-depth discus-                                              to review Suspicious Activity
                                       institution fraud, and we achieved
sion of OIG audits, evaluations,                                             Reports and identify cases of
                                       successful results in combating
investigations, and other activities                                         mutual interest. (See pages 9-20.)
                                       a number of mortgage fraud
in pursuit of these goals follows.
                                       schemes. Our efforts in support       Strategic Goal 2
Strategic Goal 1                       of the Department of Justice’s        Insurance: Help the FDIC
Supervision: Assist the                Operation Malicious Mortgage          Maintain the Viability
FDIC to Ensure the                     also supported this goal. Particu-    of the Insurance Fund
Nation’s Banks Operate                 larly noteworthy results from         Our material loss review work
Safely and Soundly                     our casework include multiple         supports this goal, as does the
Our work in helping to ensure that     guilty pleas for mortgage fraud       investigative work highlighted
the nation’s banks operate safely      schemes carried out in Florida,       above. In both cases, our work can
and soundly takes the form of          Louisiana, and New York. Another      serve to prevent future losses to
audits, investigations, evaluations,   of our investigations led to the      the fund by way of recommenda-
and extensive communication and        sentencing of a former music          tions that can help to prevent
coordination with FDIC divisions       industry executive to 25 years in     future failures, and the deterrent
and offices, law enforcement           prison to be followed by 3 years      aspect of investigations and the
agencies, other financial regula-      of probation. He was also ordered     ordered restitution that may
tory OIGs, and banking industry        to pay restitution of more than       help to mitigate an institution’s
officials. During the reporting        $310 million to the individuals and   losses. At the end of the reporting
period, we completed audits of         institutions that he defrauded.       period, ongoing work in this goal
the FDIC’s examination assess-         In another case, a total of seven     area included an audit of the
ments of two key risks: interest       individuals pleaded guilty to         Corporation’s off-site monitoring
rate risk and liquidity risk. We       a massive home equity line of         activities for insurance risk and
recommended three improve-             credit fraud scheme that enriched     an audit of the FDIC’s invest-
ments to examiners’ consideration      them temporarily and impacted         ment management practices
of interest rate risk. In another      at least 16 different lenders in      related to the Deposit Insurance
audit, we made two recommen-           the Northern New Jersey area.         Fund, the results of which will be
dations to enhance controls over       The Office of Investigations also     included in an upcoming semian-
changes to examiner-proposed           continued its close coordination      nual report. (See pages 21-22.)
                                                                                                                  5
Strategic Goal 3                      ECU responded to Internet-based         Strategic Goal 5
Consumer Protec-                      schemes where the FDIC and OIG          Resources Manage-
tion: Assist the FDIC                 Web sites were misused to entice        ment:	 Promote Sound
to Protect Consumer                   consumers to divulge personal           Governance and Effec-
Rights and Ensure                     information. (See pages 23-26.)         tive Stewardship and
Customer Data Secu-                                                           Security of Human,
                                      Strategic Goal 4
rity and Privacy                                                              Financial, IT, and
                                      Receivership Manage-
                                                                              Physical Resources
Audits, evaluations, and investi-     ment: Help Ensure
gations contribute to the FDIC’s      that the FDIC is Ready                  The OIG devoted substantial
protection of consumers in several    to Resolve Failed                       resources to this goal area during
ways. At the end of the reporting     Banks and Effectively                   the reporting period, resulting
period we had several assignments     Manages Receiverships                   in a variety of issues addressed.
ongoing or planned in support                                                 We performed an audit of the
                                      We completed two evaluation
of this goal, including an audit                                              Corporation’s controls over
                                      assignments in this goal area. In
of consumer credit underwriting                                               contractor payments for reloca-
                                      one, we evaluated contingency
practices in community banks                                                  tion services and another audit of
                                      planning for large-scale resolution
and an evaluation of enforcement                                              controls over background checks
                                      activity and provided observa-
actions for compliance violations.                                            of child care provider personnel.
                                      tions to FDIC senior management
                                                                              In the information technology
From an investigative stand-          officials just prior to the actual
                                                                              (IT) area, we audited the reli-
point, the OIG’s Electronic Crimes    increased workload involving
                                                                              ability of information accessed
Unit (ECU) was also successful        multiple failures. A second assign-
                                                                              through the Virtual Supervisory
in working a case to deactivate       ment examined high-level controls
                                                                              Information on the Net system.
51 fraudulent email accounts to       at the IndyMac conservatorship,
                                                                              One of our most comprehensive
date involving false claims of FDIC   and we made suggestions to
                                                                              reviews was our audit of the FDIC’s
insurance or affiliation. In one of   FDIC management in place at the
                                                                              information security program,
our cases, the former co-owner        institution. We also conducted
                                                                              pursuant to the Federal Informa-
of a securities firm pleaded guilty   audits related to internal control in
                                                                              tion Security Management Act
to a securities fraud in which he     the FDIC’s receivership accounting
                                                                              of 2002 (FISMA), wherein KPMG,
misrepresented FDIC insurance         process and protection of reso-
                                                                              LLP identified eight steps that
to investors. In that regard, the     lution and receivership data
                                                                              the FDIC could take to enhance
OIG was pleased to learn that the     managed or maintained by FDIC
                                                                              information security controls. In
Emergency Economic Stabilization      contractors and made recommen-
                                                                              another audit conducted during
Act of 2008 contains a long-          dations to strengthen controls,
                                                                              the reporting period that fed into
supported provision that the OIG      with which management agreed.
                                                                              our FISMA work, KPMG reported
helped to draft giving the FDIC
                                      We continued to pursue conceal-         on the FDIC’s controls over the
increased enforcement authority
                                      ment of assets investigations           confidentiality of sensitive email
for such misrepresentation of
                                      related to criminal restitution that    communications. Additionally,
FDIC affiliation or insurance. The
                                      the FDIC is owed. (See pages 27-31.)    we audited controls over contract
6
invoice approval, payment, and        Strategic Goal 6                         revised Office of Audits Policy and
posting to the general ledger.        OIG Internal Processes:	                 Procedures Manual to address
                                      Build and Sustain a                      changes in the performance audit
One of our evaluations resulted
                                      High-Quality OIG Staff,                  standards and process changes
in suggestions to enhance the
                                      Effective Operations,                    resulting from an internal assign-
energy efficiency of the FDIC’s
                                      OIG Independence, and                    ment management review and
Virginia Square facility, including
                                      Mutually Beneficial                      external peer review results. We
the Student Residence and IT
                                      Working Relationships                    continued use of our contract
Data Centers. Another evalu-
                                      We continued to focus on a               with a qualified firm to provide
ation this period followed up
                                      number of internal activities in         audit and evaluation services to
on work we conducted for the
                                      this goal area during the past 6         the OIG to enhance the quality of
Chairman regarding IT procure-
                                      months.                                  our work and the breadth of our
ment integrity and governance.
                                                                               expertise. We took steps to better
Again, at her request, we explored    To ensure effective and efficient        track and contain costs associated
options for adding an indepen-        management of OIG resources,             with audits and evaluations. We
dent review of IT project data        among other activities, we moni-         continued use of the OIG’s end-
at key decision points in the         tored the fiscal year (FY) 2008          of-assignment feedback forms
selection and control phases of       budget, considered changes in            to provide staff with input on
the IT governance process.            the financial services industry          performance of individual audits
Ongoing or planned work in this       and economy that would likely            and evaluations and implemented
area as of the end of the reporting   impact OIG workload and finan-           a new Inspector General (IG)
period includes evaluations of        cial and human resource needs,           feedback form for audits and
the FDIC’s Corporate Employee         and prepared our FY 2009 and             evaluations that focuses on overall
Program and security guard            2010 budgets accordingly. We             assignment quality elements,
services and audits of the FDIC-      continued realignment of the OIG         including time, cost, and value.
connect system and the Corpora-       investigative resources with FDIC
                                      regions, by reassigning Office of        We encouraged individual growth
tion’s contract with Aramark.
                                      Investigations staff, and adver-         through professional development
We also promoted integrity in                                                  by using revised career develop-
                                      tising and filling vacancies. Further,
FDIC internal operations through                                               ment plans that are better aligned
                                      we continued a project to upgrade
ongoing OIG Hotline referrals                                                  with OIG goals and integrating
                                      the OIG’s audit and evaluation
and coordination with FDIC                                                     training plans for OIG staff in
                                      tracking system and assess how
management. (See pages 32-39.)                                                 the career development plans,
                                      we are using TeamMate as we
                                      conduct audits and evaluations to        continuing the OIG mentoring
                                      better leverage that technology          program, advertising multiple
                                      and ensure efficiency in our work.       expressions of interest for forensic
                                                                               accountants to assist investigators
                                      In the interest of ensuring quality      in conducting financial institution
                                      and efficiency in our work and           fraud cases, offering opportunities
                                      operations, we implemented the
                                                                                                                  7
for OIG staff to attend graduate       holding meetings to assess prog-           economy and financial services
schools of banking, sponsoring         ress, and planned for FY 2009 by           sector. We also participated
two summer interns, and hosting a      analyzing significant activities and       regularly at corporate meetings
senior executive service candidate     risks within the Corporation and           of the National Risk Committee
from another federal agency.           the financial services industry. We        and kept current with presenta-
                                       tailored our planning to emerging          tions by the Corporation’s Risk
Our office continued to foster
                                       issues and events resulting from           Analysis Center to monitor the risk
positive stakeholder relationships
                                       unprecedented turmoil in the               environment. (See pages 40-45.)
by way of IG and other OIG execu-
tive meetings with senior FDIC
executives; presentations at Audit
                                        Significant Outcomes
Committee meetings; congres-            (April 2008 - September 2008)
sional interaction; and coordina-       Audit and Evaluation Products Issued                                                15
tion with financial regulatory OIGs,
                                        Nonmonetary Recommendations                                                         24
other members of the IG commu-
nity, other law enforcement             Investigations Opened                                                               42
officials, and the U.S. Government      Investigations Closed                                                               14
Accountability Office. Members of
                                        OIG Subpoenas Issued                                                                 4
the OIG Employee Advisory Group
met with the IG, the OIG partici-       Judicial Actions:
pated in corporate diversity events,    	   Indictments/Informations                                                        45
and we maintained and updated           	   Convictions                                                                     61
the OIG Web site to provide easily
accessible information to stake-        	   Arrests                                                                         31
holders interested in our office and    OIG Investigations Resulted in:
the results of our work. Of note,       	   Fines of                                                                    $20,000
the IG was named Chair of the
                                        	   Restitution of                                                        $344,435,588
Audit Committee of the President’s
Council on Integrity and Efficiency,    	   Asset Forfeiture of                                                     $8,500,000
and as such, serves as a leader in      	   Other Monetary Recoveries of                                                     0
the federal audit community. We
                                        	   Total                                                                $352,955,588
also loaned resources to assist
the Department of the Treasury          Cases Referred to the Department of Justice (U.S. Attorney)                         37
OIG in conducting its material          Cases Referred to FDIC Management                                                    1
loss review of IndyMac Bank.
                                        OIG Cases Conducted Jointly with Other Agencies                                    135
In the area of enhancing OIG risk       Hotline Allegations Referred                                                        64
management activities, we carried
out and monitored the OIG’s FY          Proposed Regulations and Legislation Reviewed                                        7
2008 business plan, including           Proposed FDIC Policies Reviewed                                                     10

8                                       Responses to Requests and Appeals under the Freedom of Information Act               1
                                         Strategic Goal 1:
                                         The OIG Will Assist
                                         the FDIC to Ensure
                                                                                           1
                                         the Nation’s Banks
                                         Operate Safely
                                         and Soundly




T
The Corporation’s supervision            supervision for banks. According       engaging in transactions with the
program promotes the safety and          to examination policy, the objec-      governments of, or individuals or
soundness of FDIC-supervised             tive of a risk-focused examina-        entities associated with, foreign
insured depository institutions. As      tion is to effectively evaluate the    countries against which federal
of September 30, 2008, the FDIC          safety and soundness of the bank,      law imposes economic sanctions.
was the primary federal regulator        including the assessment of risk       In the event of an insured deposi-
for 5,134 FDIC-insured, state-char-      management systems, financial          tory institution failure, the Federal
tered institutions that were not         condition, and compliance with         Deposit Insurance Act requires
members of the Federal Reserve           applicable laws and regula-            the cognizant OIG to perform a
System (generally referred to as         tions, while focusing resources        review when the Deposit Insur-
“state non-member” institutions).        on the bank’s highest risks.           ance Fund incurs a material loss. A
The Department of the Treasury           Part of the FDIC’s overall respon-     loss is considered material to the
(the Office of the Comptroller of        sibility and authority to examine      insurance fund if it exceeds $25
the Currency and the Office of           banks for safety and soundness         million or 2 percent of the failed
Thrift Supervision) or the Federal       relates to compliance with the         institution’s total assets. During
Reserve Board supervise other            Bank Secrecy Act (BSA), which          the past reporting period, 11
banks and thrifts, depending on          requires financial institutions to     FDIC-insured institutions failed.
the institution’s charter. The Corpo-    keep records and file reports on       Four of these triggered the FDIC
ration also has back-up exami-           certain financial transactions.        OIG’s commencing a material loss
nation authority to protect the          FDIC-supervised institutions must      review during the period. The
interests of the Deposit Insurance       establish and maintain procedures      FDIC OIG performs the review if
Fund for 3,250 national banks,           to comply with BSA requirements.       the FDIC is the primary regulator
state-chartered banks that are           An institution’s level of risk for     of the institution. The Depart-
members of the Federal Reserve           potential terrorist financing and      ment of the Treasury OIG and the
System, and savings associations.        money laundering determines            OIG at the Board of Governors
The examination of the institu-          the necessary scope of the BSA         of the Federal Reserve System
tions that it regulates is a core FDIC   examination. In a related vein, the    perform reviews when their
function. As of June 30, 2008, the       U.S. Department of the Treasury’s      agencies are the primary regula-
Corporation had conducted 1,202          Office of Foreign Assets Control       tors. These reviews identify what
safety and soundness examina-            (OFAC) promulgates, develops,          caused the material loss, evaluate
tions. Through this process, the         and administers economic and           the supervision of the federal
FDIC assesses the adequacy of            trade sanctions such as trade          regulatory agency (including
management and internal control          embargoes, blocked assets              compliance with the Prompt
systems to identify, measure, and        controls, and other commercial         Corrective Action requirements
control risks; and bank examiners        and financial restrictions under       of the Federal Deposit Insurance
judge the safety and soundness of        the provisions of various laws.        Act), and propose recommenda-
a bank’s operations. The examina-        Generally, OFAC regulations            tions to prevent future failures.
tion program employs risk-focused        prohibit financial institutions from

                                                                                                                    9
           President Roosevelt signed the Banking Act of 1933, a part of which established
           the FDIC.




Also of significance with respect             to detect, it can significantly                with U.S. Attorneys’ Offices to
to safety and soundness, the                  raise the cost of a bank failure,              bring these cases to justice.
FDIC and other federal banking                and examiners must be alert                    The OIG’s investigations of finan-
agencies agreed to finalize rules             to the possibility of fraudulent               cial institution fraud currently
implementing Basel II advanced                activity in financial institutions.            constitute about 88 percent of
capital requirements for large,               The OIG’s Office of Investigations             the OIG’s investigation caseload.
complex banks. The agreement                  works closely with FDIC manage-                The OIG is also committed to
contains important safeguards                 ment in DSC and the Legal Divi-                continuing its involvement in inter-
against unrestrained reductions               sion to identify and investigate               agency forums addressing fraud.
in risk-based capital requirements            financial institution crime, espe-             Such groups include national and
for these large institutions. It also         cially various types of fraud. OIG             regional bank fraud, check fraud,
provides for the development in               investigative efforts are concen-              mortgage fraud, cyber fraud,
the U.S. of the Basel II standardized         trated on those cases of most                  identity theft, and anti-phishing
approach as an option for other               significance or potential impact               working groups. Additionally, the
banks. The FDIC will continue its             to the FDIC and its programs. The              OIG engages in industry outreach
work in this realm to ensure strong           goal, in part, is to bring a halt to           efforts to keep financial institu-
regulatory capital standards.                 the fraudulent conduct under                   tions informed on fraud-related
The OIG’s audits and evaluations              investigation, protect the FDIC and            issues and to educate bankers on
are designed to address various               other victims from further harm,               the role of the OIG in combating
aspects of the Corporation’s                  and assist the FDIC in recovery of             financial institution fraud.
supervision and examination                   its losses. Pursuing appropriate               To assist the FDIC to ensure the
activities, as illustrated in the             criminal penalties not only serves             nation’s banks operate safely and
write-ups that follow. The OIG’s              to punish the offender but can also            soundly, the OIG’s 2008 perfor-
investigators also play a critical            deter others from participating                mance goals were as follows:
role in helping to ensure the                 in similar crimes. Our criminal
nation’s banks operate safely and             investigations can also be of                    •	Help ensure the effectiveness
soundly. The Corporation needs                benefit to the FDIC in pursuing                  	 and efficiency of the FDIC’s
to guard against a number of                  enforcement actions to prohibit                  	 supervision program, and
financial crimes and other threats,           offenders from continued partici-                •	Investigate and assist in pros-
including money-laundering,                   pation in the banking system.                    	 ecuting BSA violations, money
terrorist financing, data security            When investigating instances                     	 laundering, terrorist financing,
breaches, and financial institu-              of financial institution fraud,                  	 fraud, and other financial
tion fraud. Bank management is                the OIG also defends the vitality                	 crimes in FDIC-insured institu-
the first line of defense against             of the FDIC’s examination                        	 tions.
fraud, and the banks’ indepen-                program by investigating asso-
dent auditors are the second                  ciated allegations or instances
line of defense. Because fraud                of criminal obstruction of bank
is both purposeful and hard                   examinations and by working
10
OIG Work in Support of Goal 1           DSC conducts periodic risk            and reporting to the institu-
The OIG’s Office of Audits              management examinations to            tion’s board of directors could be
issued three reports during the         ascertain, among other things, an     improved. That is, examinations
reporting period in support of          institution’s Sensitivity to Market   often did not provide conclu-
our strategic goal of helping to        Risk, including interest rate risk.   sions on the adequacy of the
                                                                              independent review functions,
ensure the safety and sound-            During the reporting period, we
                                                                              or assess the adequacy of the
ness of the nation’s banks. These       conducted an audit to (1) deter-
                                                                              institution’s reporting on the
audits addressed important              mine whether the FDIC’s exami-
                                                                              independent reviews to its board.
aspects of the FDIC’s examination       nations comply with applicable
approaches to specific risks in         policies and procedures for           Additionally, training records
FDIC-supervised institutions—           assessing and addressing an insti-    we reviewed for 42 interest rate
interest rate and liquidity risks,      tution’s internal control, review,    risk and capital markets Subject
and controls over the examina-          and audit coverage of the interest    Matter Experts and Regional
tion rating review process, as          rate risk management process; and     Specialists showed that some
described below. Ongoing or             (2) evaluate the corrective actions   had obtained little or no training
planned audit work in support of        pursued when significant weak-        in recent years in their areas
the goal area as of the end of the      nesses are reported by examiners.     of expertise. Targeted training
reporting period included mate-         The audit focused on FDIC-super-      could enhance the contribution
rial loss reviews to determine          vised institutions with indicators    of these experts and specialists
the causes for the failures of four     of elevated interest rate risk.       to the examination process.
FDIC-supervised financial institu-
                                        We found that for the 38 sampled      We recommended that DSC
tions and an audit of the FDIC’s
                                        risk management examinations we       emphasize to examiners the need
brokered deposit waiver process.
                                        reviewed, FDIC examiners gener-       to fully assess and conclude on
The OIG also loaned staff to the
                                        ally complied with applicable poli-   the adequacy of an institution’s
Treasury OIG to assist that office in
                                        cies and procedures for assessing     independent review and on the
conducting a material loss review
                                        and addressing an institution’s       adequacy of reporting on the
of the failure of IndyMac Bank.
                                        internal control, review, and audit   independent review to the bank’s
DSC’s Examination Assessment            coverage of the interest rate risk    board, as warranted by risk; advise
of Interest Rate Risk                   management process. Regarding         examiners of the importance of
                                        the pursuit of corrective actions,    collectively considering all relevant
Changes in interest rates can           we found that informal and            examination guidance; and
adversely affect a financial institu-   formal corrective actions gener-      establish policies and guidelines
tion’s earnings and market capital.     ally addressed significant weak-      for the training of interest rate risk
Interest rate risk, the exposure        nesses reported by examiners          and capital markets Subject Matter
of an institution’s earnings and        in the area of interest rate risk.    Experts and Regional Special-
capital to adverse interest rate                                              ists. Management concurred
changes, is fundamental to the          We also identified situations where
                                                                              with our recommendations and
business of banking. The FDIC’s         the examiner’s assessment of an
                                                                              is taking responsive action.
                                        institution’s independent review
                                                                                                                   11
FDIC’s Examination of Liquidity        nation guidance for assessing          (ROE). The six components of the
Risk                                   an institution’s liquidity and         CAMELS rating system address
                                       associated risk management             the adequacy of Capital, the
Liquidity represents the ability
                                       and reported on those assess-          quality of Assets, the capability
of a financial institution to fund
                                       ments in their work products and       of Management, the quality and
assets and meet obligations
                                       examination results. The FDIC has      level of Earnings, the adequacy
as they become due. Insured
                                       recognized that liquidity guid-        of Liquidity, and the Sensitivity to
deposits are a common source
                                       ance and training need to be           market risk. A rating of 1 through
of liquidity for FDIC-supervised
                                       updated. In this regard, our report    5 is given, with 1 having the
financial institutions. Further,
                                       identified practices for the FDIC’s    least regulatory concern and 5
liquidity is critical to the ongoing
                                       consideration in the update efforts    having the greatest concern.
viability of an institution, and the
                                       that could assist FDIC-supervised
FDIC considers liquidity manage-                                              CAMELS ratings serve a number
                                       financial institutions in identi-
ment to be among an institu-                                                  of purposes within the FDIC,
                                       fying, measuring, monitoring,
tion’s most important activities.                                             including as input to the process
                                       and controlling liquidity risk.        of determining deposit insurance
Liquidity risk is the risk of not
                                       We did not make recommenda-            premiums charged to financial
being able to obtain funds at a
                                       tions in the report. DSC provided      institutions. Poorly rated institu-
reasonable price within a reason-
                                       a written response, stating that       tions are subject to increased
able time to meet financial
                                       the FDIC is committed to assuring      supervisory attention and poten-
institution obligations as they
                                       that liquidity risk is appropriately   tially higher deposit insurance
become due. Sound liquidity risk
                                       assessed and mitigated through         premiums and may be precluded
management controls include
                                       its examination and enforcement        from certain activity otherwise
an institution’s board of directors’
                                       action procedures. The FDIC also       permitted by law or regulation. It
oversight, policies and procedures,
                                       reiterated that the Corporation is     is important, therefore, that the
management reporting, internal
                                       involved in various initiatives to     FDIC provide assurance to finan-
controls, contingency liquidity
                                       update liquidity-related guid-         cial institutions that the CAMELS
plans (CLP), and the identifica-
                                       ance for financial institutions and    rating process is consistently
tion of funding sources. CLPs
                                       examiners.                             implemented and that institu-
include strategies for handling
                                                                              tions are treated equitably.
events that can impact day-to-day      FDIC’s Controls Over the
operations and liquidity crises.       CAMELS Rating Review Process
                                                                              Our audit focused on DSC’s field
                                                                              and regional office processes
We conducted an audit to assess        We conducted an audit to assess        for reviewing proposed CAMELS
how the FDIC addresses institu-        the internal controls the FDIC         ratings from the point at which the
tion liquidity risk and concluded      has established over the CAMELS        FDIC Examiner-in-Charge (EIC) has
that the FDIC actively addresses       rating system for reviewing            notified the financial institution
such risk through regulatory and       and changing proposed ratings          of the proposed ratings and has
supervisory activities. Further,       included in draft risk manage-         electronically submitted the draft
we found that FDIC examiners           ment Reports of Examination            ROE for supervisory review. We
complied with applicable exami-
12
An FDIC representative meets with a depositor in 1934 to explain the
insured status of her account at a closed bank.




focused on these control processes              are not able to track or monitor     ensure process integrity and
because once the institution                    changes to ratings resulting         transparency. Nevertheless, we
receives its proposed CAMELS                    from the ROE review process.         continue to believe that there
ratings, subsequent changes                     Based on the results of our
                                                                                     is value in maintaining a record
should be justified and approved                work, we concluded that DSC
                                                                                     when there are changes to an
to help ensure the changes                      controls over changes to EIC-
                                                                                     EIC-proposed rating even when
are adequately supported.                       proposed CAMELS ratings could
                                                                                     the EIC does not ultimately contest
                                                                                     that change, and we suggest that
The FDIC has established and                    be enhanced. Enhanced controls
                                                                                     DSC also consider requiring such a
implemented internal controls for               for tracking and monitoring the
                                                                                     record during the course of formal-
reviewing draft risk management                 justification and approval for
                                                                                     izing its guidance in this area.
ROEs, including the supervisory                 CAMELS rating changes will better
review of proposed CAMELS                       assure that senior management        Successful OIG Investigations
ratings. Also, DSC has established              is informed of ratings changes       Uncover Financial Institution
a process for resolving disagree-               and help ensure the transpar-        Fraud
ments between the EIC and Case                  ency and integrity of the ratings
Manager (CM) with respect to                    process. We therefore recom-         As mentioned previously, the
changes to proposed CAMELS                      mended that DSC revise the Case      OIG’s Office of Investigations’
ratings. The resolution process                 Manager Procedures Manual to         work focuses largely on fraud
includes maintaining an open                    require that changes made to         that occurs at or impacts finan-
dialogue between the EIC and                    EIC-proposed CAMELS ratings          cial institutions. The perpetra-
CM and requiring the CM to                      in the draft ROE be centrally        tors of such crimes can be those
bring unresolved differences to                 managed by DSC, including            very individuals entrusted with
the attention of the Regional                   tracking, monitoring, and main-      governance responsibilities at
Director, or designee, for resolu-              taining the documented justifica-    the institutions—directors and
tion prior to completion of the                 tion and approval for changes.       bank officers. In other cases,
draft ROE review. However, review                                                    individuals providing profes-
                                                DSC generally agreed with our        sional services to the banks,
procedures do not require that                  findings and offered alterna-
changes to proposed CAMELS                                                           others working inside the bank,
                                                tive corrective actions, including   and customers themselves are
ratings, agreed to by the EIC,                  formalizing the guidance to staff
be documented or justified.                                                          principals in fraudulent schemes.
                                                on the required method for docu-
Further, we found that none of                  menting unresolved differences       The cases discussed below are
the six DSC regions centrally                   related to final CAMELS ratings      illustrative of some of the OIG’s
maintains a record of all of                    and developing a method to           most important investigative
the CAMELS ratings changes                      track those instances. Depending     success during the reporting
or documentation justifying                     on the content of the DSC guid-      period. These cases reflect the
and approving changes to EIC-                   ance, we agree that DSC actions      cooperative efforts of OIG investi-
proposed ratings. Consequently,                 can substantially meet the intent    gators, FDIC divisions and offices,
the regions and DSC headquarters                of our recommendation to help        U.S. Attorneys’ Offices, and others

                                                                                                                       13
in the law enforcement commu-          Real Estate Appraiser Sentenced        Source: Suspicious Activity Report and
nity throughout the country.           for Defrauding Financial Institu-      a request by the U.S. Attorney’s Office.
                                                                              Responsible Agencies: FDIC OIG, U.S.
                                       tions
A growing number of our cases                                                 Postal Inspection Service, and the
                                                                              FBI. Prosecuted by the U.S. Attorney’s
address the increased incidence of     On August 29, 2008, an Illinois real
                                                                              Office, Central District of Illinois.
mortgage fraud. Other significant      estate appraiser was sentenced
cases during the reporting period      in the U.S. District Court for the     Guilty Plea in Florida Mortgage
involve securities fraud, embezzle-    Central District of Illinois to 60     Fraud Case
ment, money laundering, and            months in prison, to be followed
bank fraud. The OIG’s success in all   by 60 months of supervised             On September 18, 2008, the
such investigations contributes to     release. A special assessment of       former president of American
ensuring the continued safety and      $400 was ordered. Restitution in       Mortgage Link (AML) and Solu-
soundness of the nation’s banks.       the amount of $1,051,852 was           tions Processing, Inc. (Solutions),
                                       ordered to Central Illinois Bank,      both located in Tampa, FL. entered
Successful Mortgage Fraud              Chase Bank, CitiMortgage, and          a guilty plea in the United States
Cases                                  two other individuals. Restitu-        District Court for the Middle
                                       tion is joint and several with         District of Florida, Tampa, FL, to
Our office has successfully investi-
                                       two other co-defendants.               a criminal Information charging
gated a number of mortgage fraud
                                                                              him with conspiracy to commit
cases over the past 6 months,          As described in previous semian-       wire fraud and to deprive Coast
several of which are described         nual reports, from 1999 through        Bank of Florida of the intan-
below. Our involvement in such         2005, the real estate appraiser,       gible right of honest services.
cases is supplemented by our           along with two other businessmen
participation in a growing number      and a mortgage broker engaged          According to the Information,
of mortgage fraud task forces.         in a real estate “land flipping”       the former president of these
According to the Federal Bureau        scheme to defraud real estate          companies was in engaged in the
of Investigation (FBI), mortgage       lenders, buyers, and sellers. One      business of originating mort-
fraud is one of the fastest growing    of the victim lenders, Central         gage loans. Solutions was a shell
white-collar crimes. Such illegal      Illinois Bank, Champaign, Illinois,    company. The former president
activity can cause financial ruin to   is an FDIC-regulated institu-          used his position at AML to charge
homeowners and local communi-          tion. The scheme involved more         AML clients who wanted residen-
ties. It can further impact local      than 150 fraudulent real estate        tial home loans from Coast Bank
housing markets and the economy        sales and financial transactions       a mortgage brokerage fee that
at large. Mortgage fraud can take      totaling more than $8 million          was one percent higher than AML
a variety of forms and involve         and resulted in the fraudulent         would otherwise have charged. He
multiple individuals, as shown         receipt of more than $3 million        used bank accounts in the name of
in the write-ups that follow.          which the individuals converted        Solutions to receive the additional
                                       to their personal use or used to       one percent brokerage fee and
                                       promote their ongoing scheme.          to facilitate the transfer of three-
                                                                              quarters of the additional one

14
percent charge to a co-conspirator.               co-conspirators and the developer.         made by either a group of inves-
The former president kept the                     First Guaranty funded 179 loans            tors or the payments would be
remaining one-quarter of the                      totaling $33,296,834 behind this           covered by rental income gener-
excess brokerage fee for himself.                 fraud scheme. First Guaranty has           ated by the property. In exchange
Source: Referral from the Atlanta DSC and         experienced losses in excess of $4         for using their names and good
DRR Offices into suspicious loan activity at      million as a result of the scheme.         credit, some of the straw buyers
Coast Bank. Responsible Agencies: This is                                                    would receive a fee, typically in
                                                  Source: DSC/Suspicious Activity Report.
a joint investigation with the FBI and the
                                                  Responsible Agencies: FDIC OIG joint       the range of $5,000 to $10,000
Internal Revenue Service (IRS), Criminal
                                                  investigation with the FBI, Baton Rouge,   per property; others received no
Investigation Division. The case is being
                                                  LA. The case is being prosecuted by the
prosecuted by the U.S. Attorney’s Office for                                                 fee but were told that the invest-
                                                  U.S. Attorney’s Office, Middle District
the Middle District of Florida, Tampa, Florida.                                              ment would enhance their credit
                                                  of Louisiana, Baton Rouge, LA.
                                                                                             scores. The straw buyers were
Former Mortgage Broker Pleads                     Guilty Pleas in New York                   also promised that after a short
Guilty                                            Mortgage Fraud Case                        period of time, their names would
On June 5, 2008, in the Middle                                                               be removed from the property
                                                  During the reporting period,
District of Louisiana, Baton Rouge,                                                          title. After the straw buyers had
                                                  several individuals involved in
Louisiana, a former mortgage                                                                 been identified, the individuals
                                                  a mortgage fraud scheme in
broker who assisted in a real                                                                would identify properties to be
                                                  Brooklyn, NY, entered guilty
estate development investment                                                                used in the scheme, complete
                                                  pleas to charges of conspiracy
scheme in the Baton Rouge area                                                               fraudulent mortgage applica-
                                                  to commit bank fraud.
pleaded guilty to one count                                                                  tions, submit the applications
of misprision of a felony.                        According to the indictments,              to lenders, and arrange for the
                                                  from 2005 until February 2008,             resulting loans to be closed.
In a conspiracy with others,                      the individuals involved in the
the former mortgage broker                                                                   Source: New York Mortgage Fraud
                                                  scheme recruited straw buyers              Task Force. Responsible Agencies: This
created and provided fraudulent                   with good credit scores to                 case is a joint investigation with the
permanent loan commitments                        purchase residential properties            FBI. The case is being prosecuted by the
in construction loan applica-                     within the boroughs of New York
                                                                                             U.S. Attorney’s Office, Eastern District
tion packages to First Guaranty                                                              of New York, Brooklyn, NewYork.
                                                  City. The defendants then pitched
Bank, Baton Rouge, Louisiana,                     “investment opportunities” to the
an FDIC-regulated institution.                    straw buyers. Under the terms of
The loan packages included false                  these investment opportunities,
loan commitments, fraudulent                      the straw buyers would apply for
loan applications, and inflated                   a mortgage on a property but
appraisals. The construction                      would not be required to make
loans obtained provided the                       mortgage payments or even take
initial construction financing,                   possession of the houses. The
and a portion of the proceeds                     defendants further promised that
was used to pay each of the                       the mortgage payments would be
                                                                                                                                        15
Other Investigative Case Results
$310 Million Restitution Sentencing     FDIC OIG Supports Operation Malicious Mortgage
for Bank Fraud                          The FDIC OIG participated in the Department of Justice announce-
On May 21, 2008, a former loan          ment of Operation Malicious Mortgage on June 19, 2008. This initia-
customer of ten different finan-        tive brings together federal law enforcement authorities throughout
cial institutions was sentenced         the United States to create a consolidated strategy to combat the
in the U.S. District Court for the      threat that mortgage fraud poses to the U.S. housing industry and
Middle District of Florida, Orlando     worldwide credit markets.
Division, to 25 years in prison, to     With respect to the FDIC OIG’s activities in support of this initiative,
be followed by 3 years of proba-        we reported the following case statistics related to mortgage fraud
tion. The Senior U.S. District          for the period March 1, 2008 - June 19, 2008:
Judge also signed a $200 million
money judgment and fined the              •	25 arrests
individual a $400 special assess-         •	20 indictments/informations
ment. Due to the large number
                                          •	13 convictions
of individual investor victims,
a separate restitution hearing            •	3 sentencings
was held at a later date.                 •	Associated dollar losses of $46.3 million
Beginning in 1989, the loan             Since that time we have continued to successfully pursue such cases,
customer and other co-conspira-         as shown in our results for the reporting period. We are committed
tors devised a scheme to defraud        to continuing our involvement in this and other such initiatives as
investors by offering stock             active participants in mortgage fraud task forces and working groups
investments in Transcontinental         nationwide. We are pleased to partner with Department of Justice
Airlines Travel Services. Shortly       in combating mortgage fraud and appreciate the support of our
thereafter, investors were offered      colleagues throughout the Corporation as we work to ensure the
the opportunity to invest in an         integrity of the financial services and housing industries.
Employee Investment Savings
Account program under the guise
of Transcontinental Airlines. The     financial statements prepared by         obtaining loans by submitting
loan customer and his co-conspir-     a fictitious accounting firm called      false financial statements and tax
ators falsely claimed to investors    “Cohen & Siegel” misrepresenting         returns prepared by the ficti-
that their investments in the         the financial status of Transcon-        tious accounting firm of “Cohen
Employee Investment Savings           tinental Airlines and Transconti-        & Siegel” and another fictitious
Account program were insured          nental Airlines Travel Services.         accounting firm named “S. Kaplan
by the FDIC up to $100,000 and                                                 & Co.” The co-conspirators pledged
                                      Beginning in 2001, the co-conspir-
further insured up to $1,000,000                                               worthless stock to a number of the
                                      ators devised another scheme to
by Lloyd’s of London and AIG          defraud a number of FDIC-insured         loans as security and submitted
Insurance. They provided false        institutions by applying for and         a number of documents signed
16
by an individual who had been           Source: We initiated this investigation            The former customers reportedly
dead for several years. Similar         based on a referral from FDIC’s Kansas City        needed funding to develop and
                                        DSC. Responsible Agencies: This is a joint
to the investment scheme, they          investigation with the FBI, IRS Criminal           market a number of inventions.
defrauded FDIC-insured insti-           Investigation Division, and the Florida Office     The couple admitted that this
tutions by executing a “Ponzi”          of Financial Regulation. The case is being         was done to evade bank lending
scheme in which money borrowed          prosecuted by the U.S. Attorney’s Office for the   limits and avoid federal lending
                                        Middle District of Florida, Orlando Division.
from the institutions would                                                                regulations. The funds were then
be paid to other FDIC-insured           Former Bank President,                             diverted for their personal use.
institutions for earlier loans.         Customers, and Others                              They spent more than $2.5 million
The loan customer also engaged          Sentenced for Roles in Conspiracy                  on personal items out of about
in a money laundering transaction       to Commit Bank Fraud                               $4.5 million loaned to them from
                                                                                           March 2000 through July 2002.
in November 2006 when he wired          On August 29, 2008, the former
$500,000 from a bank account in         president of the now-defunct                       On June 30, 2008, the two former
Florida to a bank account located       First National Bank of Northern                    customers were each sentenced
in the Netherlands, and engaged         Kentucky was sentenced in the                      in the United States District Court
in a bankruptcy fraud transaction       United States District Court for                   for the Eastern District of Kentucky
in March 2007 when he presented         the Eastern District of Kentucky                   to 24 months’ incarceration to be
a fraudulent claim in the amount        to 9 months of incarceration to                    followed by 5 years of supervised
of approximately $5.2 million.          be followed by 3 years of super-                   release. They were also ordered
                                        vised release. He paid restitu-                    to pay $3,463,569 in restitution
On August 6, 2008, the Senior
District Judge ordered the              tion of $150,626 to the Bank of                    jointly and severally: $2,463,569
former loan customer to pay the         Kentucky prior to sentencing.                      to the Bank of Kentucky and
                                                                                           $1,000,000 to the Cincinnati
victims in this case at total of        As described in previous semian-                   Insurance Company. Another
$310,149,284 in restitution. This       nual reports, two former bank                      family member and her friend
amount includes $141,182,672 in         customers, a married couple,                       each received 5 years of super-
losses suffered by the individual       obtained more than $2.5 million                    vised release and were ordered
victims who invested money in           in loans by false means in collu-                  to pay restitution in the amount
the Employee Investment Savings         sion with the former president.
Account, another $42,219,858                                                               of $43,623 and $83,185, respec-
                                        The former customers made false                    tively, to the Bank of Kentucky.
to the individual victims who           statements on loan applications
purchased stock in Transconti-          and conspired with the former                      Earlier in June, another family
nental Airlines Travel Services, Inc.   president to arrange loans to                      member pleaded guilty to one
or another entity affiliated with       be made in the names of their                      count of facilitation of theft by
the defendant, and $126,746,752         various family members, suppos-                    deception and was sentenced
to the 10 institution victims that      edly for legitimate business                       to 12 months of incarceration
loaned money or provided a              purposes. The family members                       conditionally discharged for 2
line of credit to the defendant         also participated in the scheme.                   years. She also paid $28,000 of
or another related entity.                                                                 restitution to the Bank of Kentucky.
                                                                                                                             17
Source: DRR Resolution Report for         in this fashion. In June 2007, FDIC           conspiracy to commit bank fraud.
the Chairman. Responsible Agencies:       agents assisted in the arrest of 38
Joint Investigation by FDIC OIG and the                                                 The former owner defrauded 22
                                          individuals and the execution of
FBI. Prosecuted by the U.S. Attorney’s                                                  banks in Mississippi and Louisiana
Office, Eastern District of Kentucky.     a search warrant at the office of             by double-pledging commercial
                                          one of the roofing companies.                 real estate as collateral for loans.
Bank Customer Pleads Guilty to
                                          By pleading guilty, the former                The fraud amounted to more
Conspiracy
                                          president of MCS admitted that                than $14.7 million, and losses
On July 29, 2008 in the U.S. District     he participated in two sepa-                  to the banks totaled more than
Court for the Western District of         rate conspiracies to encourage                $5.4 million. To carry out the
Missouri, the former president            illegal aliens to enter and reside            scheme, the former real estate
of Mid-Continent Specialists              in the United States for the                  developer and co-conspirators
(MCS), a Kansas corporation,              purpose of commercial advan-                  (1) falsely stated in loan applica-
pleaded guilty to conspiracy.             tage and private financial gain.              tions that one of the companies
MCS subcontracted roofing                 The former president of MCS is                owned a property free of other
work to another individual doing          the sixth co-defendant to plead               liens, (2) executed fraudulent
business as LH Roofing, Inc. This         guilty to charges contained in                certificates of title to support
second individual was involved in         the federal indictment. Five other            claims of unencumbered real
structuring and money laundering          co-defendants pleaded guilty                  estate, (3) fraudulently filed a
through his accounts at Union             to participating in a money-                  cancellation of the bank’s deeds
Bank, an FDIC-regulated institu-          laundering conspiracy. Two of the             of trust, and (4) forged title
tion in the Kansas City metro-            co-defendants also pleaded guilty             insurance commitments. The
politan area. The former president        to illegally reentering the United            other subjects in the case were
of MCS, also doing business as                                                          to be charged at a later date.
                                          States after having been deported.
New Century Roofing, gave the             Source: U.S. Attorney’s Office, Western
                                                                                        Source: Suspicious Activity Reports/DSC.
individual at LH Roofing checks                                                         Responsible Agencies: Joint investigation by
                                          District of Missouri. Responsible Agen-
                                                                                        FDIC OIG, FBI, and IRS Criminal Investigation
drawn on New Century’s account            cies: Joint Investigation by FDIC OIG, U.S.
                                                                                        Division. Prosecuted by the U.S. Attorney’s
at Hillcrest Bank. That individual        Immigration and Customs Enforcement,
                                                                                        Office, Southern District of Mississippi.
                                          and IRS. Prosecuted by the U.S. Attorney’s
then deposited the checks into            Office, Western District of Missouri.
one of his accounts at Union Bank                                                       Guilty Pleas in Home Equity Line
and subsequently wrote checks             Former Real Estate Developer                  of Credit Fraud Case
to a number of Hispanic surname           Pleads Guilty                                 Over the past 6-month period, a
males. The checks were all for                                                          total of seven individuals pleaded
                                          On April 4, 2008 in the U.S. District
less than $10,000 and were all                                                          guilty in the District of New Jersey
                                          Court for the Southern District of
cashed at Union Bank branches.                                                          to various charges in connection
                                          Mississippi, Jackson, Mississippi,
During the little more than one                                                         with a massive home equity line
                                          the former owner of several real
year that the account was opened,                                                       of credit (HELOC) fraud scheme.
                                          estate development companies
approximately $1.4 million moved
                                          in Mississippi pleaded guilty to an           In this scheme, approximately
through the LH Roofing account
                                          Information charging one count of             20 individuals conspired to
18
fraudulently obtain more than $20                   Four Sentenced for Bank Fraud          On April 28, 2008, one of the
million in home equity loans and                    and Social Security Administra-        borrowers was sentenced to
business lines of credit. Victims                   tion Supplemental Security             11 months of incarceration, to
include at least 16 different                       Income Fraud                           be followed by 5 years and 3
lenders in northern New Jersey,                     On June 25, 2008, the former           months of supervised release,
including Woori American Bank                       president of Franklin County           and ordered to pay restitution of
and Royal Asian Bank. In a HELOC,                   Financial Services (FCFS), a subsid-   $45,290 to the Bank of Franklin.
a borrower pledges the equity in                    iary of the Bank of Franklin, was      She had pleaded guilty earlier to
the borrower’s property as security                 sentenced in the U.S. Southern         one count of bank fraud and one
for the line of credit. The bank’s                  District of Mississippi to 46 months   count of Social Security Supple-
security interest in the property                   of federal incarceration, to be        mental Security Income fraud. The
is then publicly recorded so that                   followed by 5 years of supervised      second borrower was sentenced
other lenders will be aware of prior                release. He was also ordered to        to 10 months’ incarceration, to
claims on the property. The ring-                   pay restitution of $145,142 to         be followed by 5 years of super-
leader of the scheme in this case,                  the Bank of Franklin. Previously,      vised release, and ordered to
along with his co-conspirators,                     he had pleaded guilty to one           pay restitution of $51,384 to the
executed the scheme by closing                      count of bank fraud and one            Bank of Franklin. She had pleaded
on multiple HELOCs in a short                       count of Social Security Supple-       guilty earlier to one count of bank
period of time so that the earlier                  mental Security Income fraud.
                                                                                           fraud. The former secretary was
lenders’ security interests would                                                          sentenced to one day of incar-
not yet be publicly recorded. To                    From 1995 to 2003, the former          ceration and given credit for time
illustrate—in one instance the                      president of FCFS made loans to        served. She is to serve one month
co-conspirators arranged for                        two former borrowers using false       of house arrest on weekends and
clients to enter into HELOC agree-                  Social Security numbers and to         4 years of supervised release. She
ments with eleven different banks,                  a nominee borrower, a former           was ordered to pay restitution of
in which less than $300,000 of                      secretary at FCFS. The borrowers       $7,493 to the Bank of Franklin.
equity in a property was mort-                      failed to make consistent and          She, too, had pleaded guilty earlier
gaged as security for approxi-                      timely repayments. The former          to one count of bank fraud.
mately $1.35 million in credit.                     president did not attempt to           Source: Suspicious Activity Report. Respon-
Source: We initiated this investigation based
                                                    collect repayments from these          sible Agencies: Joint investigation by the
on a request for assistance from the U.S. Attor-    borrowers. Instead, he transferred     FDIC OIG and the Social Security Administra-
ney’s Office, Newark, New Jersey. Responsible       balances of their old loans to new     tion OIG. Prosecuted by the U.S. Attorney’s
Agencies: This is a joint investigation with the                                           Office, Southern District of Mississippi.
                                                    loans. This prevented the loans
FBI. The case is being prosecuted by the U.S.
Attorney’s Office for the District of New Jersey.
                                                    from defaulting and being written
                                                    off. The bank estimated a loss of
                                                    $606,957 due to these activities.




                                                                                                                                     19
     Strong Partnerships with Law Enforcement Colleagues
     The OIG has partnered with many U.S. Attorneys’ Offices throughout
     the country in bringing to justice individuals who have defrauded
     the FDIC or financial institutions within the jurisdiction of the
     FDIC, or criminally impeded the FDIC’s examination and resolution
     processes. The alliances with the U.S. Attorneys’ Offices have yielded
     positive results during this reporting period. Our strong partnership
     has evolved from years of hard work in pursuing offenders through
     parallel criminal and civil remedies resulting in major successes, with
     harsh sanctions for the offenders. Our collective efforts have served
     as a deterrent to others contemplating criminal activity and helped
     maintain the public’s confidence in the nation’s financial system.
     During the reporting period, we partnered with U.S. Attorneys Offices
     in the District of Columbia and following states: Alabama, Arizona,
     California, Florida, Georgia, Illinois, Indiana, Iowa, Kansas, Kentucky,
     Louisiana, Massachusetts, Michigan, Minnesota, Mississippi, Missouri,
     Nebraska, New Jersey, New Mexico, New York, North Carolina,
     Ohio, Oklahoma, Tennessee, Texas, Utah, Vermont, and Virginia.
     We also worked closely with the Department of Justice, FBI, other
     OIGs, state and local law enforcement officials, and FDIC divisions
     and offices as we conducted our work during the reporting period.




20
                                         Strategic Goal 2:
                                         The OIG Will Help
                                         the FDIC Maintain
                                                                                          2
                                         the Viability of the
                                         Insurance Fund




F
Federal deposit insurance remains        Industry-wide trends and risks        2008, which caused an $8.9 billion
a fundamental part of the FDIC’s         are communicated to the finan-        loss to the DIF. Over recent years,
commitment to maintain stability         cial industry, its supervisors, and   the consolidation of the banking
and public confidence in the             policymakers through a variety of     industry has resulted in fewer and
Nation’s financial system. Of signifi-   regularly produced publications       fewer financial institutions control-
cance, shortly after the close of        and ad hoc reports. Risk-manage-      ling an ever expanding percentage
the reporting period, with enact-        ment activities include approving     of the Nation’s financial assets.
ment of the Emergency Economic           the entry of new institutions into    Although the FDIC may not be
Stabilization Act of 2008, the limit     the deposit insurance system,         the primary federal regulator for
of the basic FDIC deposit insurance      off-site risk analysis, assessment    these large financial institutions,
coverage has been raised tempo-          of risk-based premiums, and           it is responsible for insuring their
rarily from $100,000 to $250,000         special insurance examinations        deposits and for resolution in the
per depositor, through December          and enforcement actions. In light     event one or more of these institu-
31, 2009. A priority for the FDIC is     of increasing globalization and       tions fail. In recent years, the FDIC
to ensure that the Deposit Insur-        the interdependence of finan-         has taken a number of measures to
ance Fund (DIF) remains viable to        cial and economic systems, the        strengthen its oversight of the risks
protect depositors in the event of       FDIC also supports the devel-         to the insurance fund posed by
an institution’s failure. This fund      opment and maintenance of             the largest institutions, and its key
was at $45.2 billion as of June 30,      effective deposit insurance and       programs include the following:
2008, but had decreased to $34.6         banking systems world-wide.             •	Large Insured Depository
billion during the third quarter         Primary responsibility for identi-      	 Institution Program,
of 2008. To maintain sufficient          fying and managing risks to the
DIF balances, the FDIC collects                                                  •	Dedicated Examiner Program,
                                         DIF lies with the FDIC’s Division
risk-based insurance premiums            of Insurance and Research, DSC,         •	Shared National Credit
from insured institutions and            and DRR. To help integrate the          	 Program, and
invests deposit insurance funds.         risk management process, the            •	Off-site monitoring systems.
The FDIC, in cooperation with the        FDIC established the National
other primary federal regulators,        Risk Committee, a cross-divisional    The Congress enacted deposit
proactively identifies and evalu-        body. Also, a Risk Analysis Center    insurance reform in early 2006 to
ates the risk and financial condi-       monitors emerging risks and           give the FDIC more discretion in
tion of every insured depository         recommends responses to the           managing the DIF and allow the
institution. The FDIC also identifies    National Risk Committee. In addi-     Corporation to better price deposit
broader economic and financial           tion, a Financial Risk Committee      insurance based on risk. In 2006,
risk factors that affect all insured     focuses on how risks impact the       the Board adopted a number of
institutions. The FDIC is committed      DIF and financial reporting.          final rules implementing specific
to providing accurate and timely                                               reforms concerning the one-time
                                         Large banks pose unique risks         assessment credit, risk-based
bank data related to the financial       to the DIF, as illustrated by the
condition of the banking industry.                                             assessments, the designated
                                         failure of IndyMac Bank in July       reserve ratio, and put in place
                                                                                                                  21
                                                               Mrs. Lydia Lobsiger was the first
                                                               insured depositor paid by the
                                                               FDIC. She received her payment of
                                                               $1,250 at a closed bank in Peoria,
                                                               Illinois, in July 1934.




a temporary rule for dividends.          viability of the DIF, the OIG’s 2008         Liquidation Fund portfolios are
In 2007, the Corporation made            performance goals were as                    managed consistent with the
significant changes to its infor-        follows:                                     FDIC’s approved investment poli-
mation technology (IT) systems             •	Evaluate corporate programs to           cies, procedures, and practices.
and business processes in order            	 identify and manage risks in             This assignment is a follow-on
to prepare invoices and collect            	 the banking industry that can            to work we conducted in 2005
assessments in accordance with             	 cause losses to the fund.                related to the FDIC’s investment
the new risk-based assessment                                                         policies. The FDIC Chairman at
and credit rules. In September             •	Evaluate selected aspects of             the time requested that the OIG
2007, the Board adopted an                 	 implementation of deposit                conduct an independent audit of
advance notice of proposed                 	 insurance reform.                        the corporate investment program
rulemaking seeking comment on                                                         every 3 years and include the
alternative approaches to allocate       OIG Work in Support of Goal 2                investment policies applicable to
dividends. During 2008, the FDIC                                                      the National Liquidation Fund.
                                         As of the end of the reporting
expected to publish proposed and                                                      Also at the end of the reporting
                                         period, we had two ongoing
final dividend rules to replace the                                                   period, we were anticipating
                                         audits in this strategic goal area.
temporary rule, which will sunset                                                     conducting work related to the
                                         In the first, we are assessing the
at the end of this year. The Corpo-                                                   IndyMac failure, in such areas as
                                         Corporation’s internal controls
ration will continue to modify                                                        the FDIC’s monitoring and aware-
                                         for performing off-site moni-
as necessary the processes and                                                        ness of the institution, its planning
                                         toring activities of insured
systems implementing the new                                                          of resolution activities, and its
                                         depository institutions. As part
rules and evaluate the effective-                                                     execution of closing activities.
                                         of this review, we are assessing
ness of the new assessment
                                         the FDIC’s implementation of
methods and processes in light
                                         recommendations made by the
of recent events. Finally, for both
                                         Government Accountability Office
2007 and 2008, the Board adopted
                                         pertaining to strengthening the
a designated (target) reserve ratio
                                         FDIC’s risk assessment activities
of 1.25 percent, which has resulted
                                         through periodic reviews and
in the need to set risk-based
                                         evaluations of the Corporation’s
assessment rates above the base
                                         off-site monitoring systems.
rate schedule in order to gradually
raise the reserve ratio to the target.   We have also contracted with
As of the third quarter of 2008,         KPMG, LLP (KPMG) to perform
that ratio was at 0.76 percent. A        an audit of the FDIC investment
recent FDIC DIF restoration plan         program, including the DIF
and an assessments proposal are          portfolio and the National Liquida-
intended to replenish the fund.          tion Fund. The audit objective is
                                         to assess the FDIC’s controls for
To help the FDIC maintain the
                                         ensuring that the DIF and National
22
                                        Strategic Goal 3:
                                        The OIG Will Assist
                                        the FDIC to Protect
                                                                                          3
                                        Consumer Rights
                                        and Ensure Customer
                                        Data Security
                                        and Privacy




C
Consumer protection laws are              •	The Truth in Lending Act            and regulations and banking
important safety nets for Ameri-          	 requires meaningful disclosure      practices. The volume of calls
cans. The U.S. Congress has long          	 of credit and leasing terms.        and inquiries to the Call Center
advocated particular protections          •	The Fair and Accurate Credit
                                                                                increased significantly during the
for consumers in relationships with       	 Transaction Act further
                                                                                reporting period, largely due to
banks. For example:                       	 strengthened the country’s
                                                                                the increase in bank failures and
                                                                                consumer concerns regarding
  •	The Community Reinvest-               	 national credit reporting
                                                                                insurance coverage and the safety
  	 ment Act encourages federally         	 system and assists financial
                                                                                and soundness of their banks.
  	 insured banks to meet the             	 institutions and consumers in
  	 credit needs of their entire          	 the fight against identity theft.   Recent events in the credit and
  	 community.                          The FDIC serves a number of key
                                                                                mortgage markets present
                                                                                regulators, policymakers, and the
  •	The Equal Credit Opportunity        roles in the financial system and
                                                                                financial services industry with
  	 Act prohibits creditor practices    among the most important is the
                                                                                serious challenges. The Chairman
  	 that discriminate based on          FDIC’s work in ensuring that banks
                                                                                is committed to working with the
  	 race, color, religion, national     serve their communities and
                                                                                Congress and others to ensure
  	 origin, sex, marital status, or     treat consumers fairly. The FDIC
                                                                                that the banking system remains
  	 age.                                carries out its role by providing
                                                                                sound and that the broader
                                        consumers with access to infor-
  •	The Home Mortgage Disclo-                                                   financial system is positioned
                                        mation about their rights and
  	 sure Act was enacted to                                                     to meet the credit needs of the
                                        disclosures that are required by
  	 provide information to the                                                  economy, especially the needs
                                        federal laws and regulations and
  	 public and federal regula-                                                  of creditworthy households that
                                        examining the banks where the
  	 tors regarding how depository                                               may experience distress. Another
                                        FDIC is the primary federal regu-
  	 institutions are fulfilling their                                           important FDIC initiative and a
                                        lator to determine the institutions’
  	 obligations towards commu-                                                  priority for the FDIC Chairman
                                        compliance with laws and regula-
  	 nity housing needs.                                                         has been to promote expanded
                                        tions governing consumer protec-
  •	The Fair Housing Act prohibits                                              opportunities for the underserved
                                        tion, fair lending, and community
  	 discrimination based on race,                                               banking population in the United
                                        investment. As of June 30, 2008,
  	 color, religion, national origin,                                           States to enter and better under-
                                        the Corporation had conducted
  	 sex, familial status, and hand-                                             stand the financial mainstream
                                        866 Community Reinvestment
  	 icap in residential real-estate-                                            and the protections afforded
                                        Act/Compliance examinations.
  	 related transactions.                                                       them by deposit insurance.
                                        As a means of remaining respon-
  •	The Gramm-Leach Bliley Act          sive to consumers, the FDIC’s           In 2007, the federal bank, thrift,
  	 eliminated barriers preventing      Consumer Response Center                and credit union regulatory
  	 the affiliations of banks with      investigates consumer complaints        agencies issued the Statement
  	 securities firms and insurance      about FDIC-supervised institu-          on Subprime Mortgage Lending to
  	 companies and mandates new          tions and responds to consumer          address issues relating to certain
  	 privacy rules.                      inquiries about consumer laws           adjustable-rate mortgage prod-
                                                                                                                 23
ucts that can result in payment        increasing globalization and cost     fraud to Internet scams such as
shock. The statement describes         saving benefits of the financial      “phishing” and “pharming”.
prudent safety and soundness and       services industry are leading         The misuse of the FDIC’s name or
consumer protection standards          many banks to make greater            logo has also been identified as
that institutions should follow to     use of foreign-based service          a scheme to defraud depositors.
ensure borrowers obtain loans          providers. Although generally         Such misrepresentations have
they can afford to repay. The agen-    permissible, this outsourcing         led depositors to invest on the
cies also published illustrations of   practice raises certain risks. The    strength of FDIC insurance while
consumer information designed          obligations of a financial institu-   misleading them as to the true
to help institutions implement         tion to protect the privacy and       nature of the investment products
the consumer protection portion        security of information about its     being offered. These depositors,
of the Interagency Guidance on         customers under applicable U.S.       who are often elderly and depen-
Nontraditional Mortgage Product        laws and regulations remain in        dent on insured savings, have lost
Risks. The illustrations should help   full effect when the institution      millions of dollars in the schemes.
consumers better understand            transfers the information to either   Further, abuses of this nature
nontraditional mortgage prod-          a domestic or foreign-based           may erode public confidence
ucts and associated payment            service provider. In June 2008,       in federal deposit insurance. As
options. The FDIC continues to         the FDIC published Guidance           discussed in previous semian-
focus attention on ensuring that       for Managing Third-Party Risk,        nual reports, the OIG has been a
the industry and consumers             which identifies sound prac-          strong proponent of legislation
understand the risks and benefits      tices to help banks avoid safety      to address such misrepresenta-
associated with various mortgage       and soundness and compliance          tions. We are pleased that the
lending activities and programs.       problems that can result from         Emergency Economic Stabilization
The Chairman’s public education        such third-party relationships.       Act of 2008, signed by the Presi-
campaign on deposit insurance in       Every year fraud schemes rob          dent on October 3, 2008 contains
conjunction with the FDIC’s 75th       depositors and financial institu-     provisions that address this issue.
anniversary and her emphasis
                                       tions of millions of dollars. The     Investigative work related to such
on the importance of personal
                                       OIG’s Office of Investigations        fraudulent schemes is ongoing
savings and responsible finan-
                                       can identify, target, disrupt, and    and will continue. With the help
cial management are additional
                                       dismantle criminal organiza-          of sophisticated technology, the
consumer-focused initiatives.
                                       tions and individual operations       OIG continues to work with FDIC
Consumers today are also               engaged in fraud schemes that         divisions and other federal agen-
concerned about data security          target our financial institutions     cies to help with the detection of
and financial privacy. Banks are       or that prey on the banking           new fraud patterns and combat
increasingly using third-party         public. OIG investigations have       existing fraud. Coordinating
servicers to provide support for       identified multiple schemes that      closely with the Corporation
core information and transaction       defraud depositors. Common            and the various U.S. Attorneys’
processing functions. Of note, the     schemes range from identity           Offices, the OIG will help to sustain
24
public confidence in federal            data. Results of this assignment       Identity theft also continues to
deposit insurance and goodwill          will be reported in an upcoming        become more sophisticated, and
within financial institutions.          semiannual report. At the Chair-       the number of victims is growing.
To assist the FDIC to protect           man’s request, our evaluations         Identity theft includes using
consumer rights and ensure              group is also conducting work in       the Internet for crimes such as
customer data security and              the area of enforcement actions        “phishing” emails and “pharming”
privacy, the OIG’s 2008 perfor-         for compliance violations.             Web sites that attempt to trick
mance goals were as follows:            Investigative work related to          people into divulging their private
                                        protection of personal infor-          financial information. Schemers
  •	Contribute to the effective-                                               pretend to be legitimate busi-
  	 ness of the Corporation’s efforts   mation and misrepresenta-
                                        tion of deposit insurance also         nesses or government entities
  	 to ensure compliance with                                                  with a need for the information
  	 consumer protections at FDIC-       supported this strategic goal
                                        area during the reporting              that is requested. The OIG’s Elec-
  	 supervised institutions.                                                   tronic Crimes Unit (ECU) responds
                                        period, as described below.
  •	Conduct investigations of                                                  to such phishing and pharming
  	 fraudulent representations of       Office of Investigations Works         scams involving the FDIC and the
  	 FDIC affiliation or insurance       to Curtail Misrepresentation of        OIG, as described further below.
  	 that negatively impact public       FDIC Insurance or Affiliation and
  	 confidence in the banking           Identity Theft Schemes                 Florida Man Pleads Guilty to
  	 system.                                                                    Securities Fraud in Hedge Fund
                                        As illustrated in the example          Scheme
                                        below, unscrupulous individuals
OIG Work in Support of Goal 3           sometimes attempt to misuse the        On July 22, 2008, in the Northern
                                        FDIC’s name, logo, abbreviation,       District of Texas, the former
At the end of the reporting                                                    co-owner of Capital 1st Financial,
period, we had an audit assign-         or other indicators to suggest that
                                                                               pleaded guilty to an Information
ment ongoing in support of this         deposits or other products are fully
                                                                               charging him with one count of
goal related to consumer credit         insured. Such misrepresentations
                                                                               securities fraud.
underwriting practices in commu-        induce the targets of schemes to
nity banks. In that audit, we are       trust in the strength of FDIC insur-   The former co-owner of the firm
assessing the FDIC’s risk manage-       ance while misleading them as to       is the third defendant charged
ment examination coverage               the true nature of the insurance       in this securities fraud case. He
of financial institutions’ under-       investments being offered. Abuses      and his associates misled inves-
writing practices for consumer          of this nature harm consumers          tors into purchasing interest in
loans not secured by real estate.       and can also erode public confi-       a hedge fund known as Secured
Specifically, we are assessing the      dence in federal deposit insur-        Capital Trust (SCT). He received
FDIC’s coverage of underwriting         ance. Our Office of Investigations     approximately $5,230,973 from
practices for Other Consumer            works to counteract these abuses       investors through the sale of SCT
Loans, which are reported as part       and also partners with others          in a marketing scheme involving
of the institutions’ Call Report        to pursue cases of this type.          representations of FDIC insur-

                                                                                                                25
ance. The marketing scheme             subsequently fell and the investors      closed financial institutions and
included newspaper advertise-          lost the majority of their funds.        employee misconduct cases
ments for FDIC-insured certificates    The receiver’s Web site indicates        involving the improper use of
of deposit paying above market         investors will lose about 95             FDIC computers. The forensic
rates. When investors responded        percent of their investment in SCT.      computer assistance involved the
to the advertisements, they were       Source: The U.S. Securities and          analysis of electronic evidence
“baited and switched” into SCT.        Exchange Commission and the FBI.         gathered from computers and
                                       Responsible Agencies: Joint investiga-   other electronic media. The ECU
Another individual, who previously     tion by the FDIC OIG and the FBI.
pleaded guilty in this case, was the                                            typically searches the electronic
primary salesman of SCT and told                                                evidence for key-words or phrases;
                                       Electronic Crimes Unit Success
investors that the funds invested                                               searches for documents, emails,
                                       During the reporting period, the         and other artifacts; and recreates
in SCT were placed in FDIC-insured
                                       ECU continued its casework related       specialized software applications
certificates of deposit or pools
                                       to fraudulent emails involving           such as accounting software.
of FDIC-insured certificates of
                                       the FDIC. The emails, purport-
deposit. The former co-owner of
                                       edly from the FDIC, attempted to
Capital 1st then used the funds
                                       entice victims to divulge personal
from the sale of SCT to purchase
                                       information and/or pay a deposit
shares of Interfinancial Holdings
                                       to receive an insurance settle-
Corporation, a thinly-traded penny
                                       ment. To date, in investigating
stock trading under the ticker
                                       these cases, the ECU was able to
symbol IFCH. He failed to disclose
                                       have 51 fraudulent email accounts
to investors that he and his
                                       deactivated. In these cases, the
partners owned millions of shares
                                       ECU traced the schemes to loca-
of IFCH and they were receiving
                                       tions outside of the United States.
“kickbacks” for purchasing IFCH
                                       The ECU has made contact with
stock with investor funds.
                                       law enforcement in the foreign
Another individual who has also        country where the emails appear
pleaded guilty in this case partici-   to have originated and will
pated in the scheme by purchasing      continue to work with foreign
and selling IFCH stock on the open     law enforcement in investigating
market in an attempt to manipu-        these fraudulent schemes that
late and increase the share price.     falsely use the FDIC name.
The State of Florida, Office of        The ECU also provided forensic
Financial Regulations, filed a         computer assistance on 17 existing
temporary injunction, appointed        and 8 new FDIC OIG cases during
a receiver, and shut down Capital      the reporting period. The cases
1st Financial. The IFCH stock price    involved bank fraud at open and

26
                                         Strategic Goal 4:
                                         The OIG Will Help
                                         Ensure that the FDIC
                                                                                          4
                                         is Ready to Resolve
                                         Failed Banks and
                                         Effectively Manages
                                         Receiverships




T
The FDIC protects depositors               	 liquidating any remaining         2008. As conservator, the FDIC has
of insured banks and savings               	 assets; and distributing any      been operating IndyMac Federal
associations. In the FDIC’s history,       	 proceeds to the FDIC, the bank    Bank, FSB to maximize the value
no depositor has experienced a             	 customers, general creditors,     of the institution for a future sale
loss on the insured amount of his          	 and those with approved           and to maintain banking services
or her deposit in an FDIC-insured          	 claims.                           in the communities formerly
institution due to a failure. One        The FDIC’s resolution and receiver-
                                                                               served by IndyMac Bank, F.S.B.
of the FDIC’s most important             ship activities pose tremendous       During 2008 through the end of
roles is acting as the receiver          challenges. As indicated by the       October, 17 FDIC-insured institu-
or liquidating agent for failed          trends in mergers and acquisi-        tions have failed. This number
FDIC-insured institutions. The           tions, banks have become more         compares to three failures in 2007
success of the FDIC’s efforts in         complex, and the industry is          and no failures prior to that since
resolving troubled institutions has      consolidating into larger organi-     June 2004. The number of problem
a direct impact on the banking           zations. As a result, the FDIC has    institutions increased during the
industry and on the taxpayers.           been called upon to handle failing    third quarter from 117 to 171.
DRR’s responsibilities include           institutions with significantly       Correspondingly, total assets of
planning and efficiently handling        larger numbers of insured deposits    problem institutions increased
the resolutions of failing FDIC-         than it has had to deal with in       from $78.3 billion to $115.6
insured institutions and providing       the past. As referenced earlier       billion. At the end of the reporting
prompt, responsive, and efficient        in this report, one such institu-     period, DRR was managing the
administration of failing and            tion was IndyMac Bank, F.S.B.,        IndyMac conservatorship and
failed financial institutions in         Pasadena, CA, with estimated          selling receivership assets from 12
order to maintain confidence and         losses to the DIF of $8.9 billion.    recent bank failures. To meet its
stability in our financial system.       IndyMac was closed on July 11 by
                                                                               workload demands, DRR has been
                                                                               authorized to hire both perma-
  •	The resolution process               the Office of Thrift Supervision.
                                                                               nent and temporary employees.
  	 involves valuing a failing feder-    The FDIC was named conservator.
                                                                               DRR is also taking advantage of
  	 ally insured depository institu-     The FDIC subsequently transferred
                                                                               the Corporation’s cross-training to
  	 tion, marketing it, soliciting and   insured deposits and substantially
                                                                               create a flexible workforce where
  	 accepting bids for the sale of       all the assets of IndyMac Bank,
                                                                               examiners can support resolution
  	 the institution, considering the     F.S.B., Pasadena, CA, to IndyMac
                                                                               activities and resolution specialists
  	 least costly resolution method,      Federal Bank, FSB. Brokered
                                                                               can support examination activities.
  	 determining which bid to             deposits are held by the FDIC and
  	 accept, and working with the         those insured deposits are paid       The FDIC must set far-reaching
  	 acquiring institution through        off when the insurance deter-         plans for the future to keep pace
  	 the closing process.                 mination is completed. IndyMac        with a changing industry. DRR has
                                         Bank, F.S.B. had total assets of      developed models to train FDIC
  •	The receivership process
                                         $32.01 billion and total deposits     staff and prepare for differing
  	 involves performing the closing
                                         of $19.06 billion as of March 31,     circumstances. One major corpo-
  	 function at the failed bank;
                                                                                                                 27
            June 29, 1939: Interior view of the closed Hamilton Trust Co. of Patterson, New Jersey,
            as FDIC officials started paying out 21,000 depositors the $2.7 million representing
            their insured claims.



rate initiative has been the Corpo-            To help ensure the FDIC is ready                   large bank failures, including the
ration’s Strategic Readiness Project,          to resolve failed banks and                        Corporation’s efforts to develop
which the OIG has monitored since              effectively manages receiver-                      and implement a new insurance
project inception, as discussed                ships, the OIG’s 2008 perfor-                      determination system by 2009.
below. We understand that                      mance goals were as follows:                       These efforts are discussed below:
project has been deferred in light                •	Evaluate the FDIC’s plans and
of current resolution activities.                                                                 Contingency Planning for Large-
                                                  	 systems for managing bank                     Scale Resolution Activity
While OIG audits and evaluations                  	 resolutions.
address various aspects of resolu-                                                                Our evaluation objectives were
                                                  •	Investigate crimes involved in
tion and receivership activities, OIG                                                             to (1) assess the FDIC’s strate-
                                                  	 or contributing to the failure
investigations benefit the Corpora-                                                               gies and plans to be prepared for
                                                  	 of financial institutions or
tion in other ways. That is, in the                                                               large-scale resolution activity and
                                                  	 which lessen or otherwise                     (2) identify any gaps or obstacles
case of bank closings where fraud                 	 affect recoveries by the DIF,
is suspected, our Office of Investi-                                                              associated with the tactical
                                                  	 involving restitution or other-               aspects of carrying out large-scale
gations (OI) sends case agents and                	 wise.
computer forensic special agents                                                                  resolution efforts and suggest
from the ECU to the institution.                                                                  opportunities for improvement.
ECU agents use special investiga-              OIG Work in Support of Goal 4                      Tactical issues are the logistics
tive tools to provide computer                 During the reporting period, the                   associated with deploying people,
forensic support to OI’s investiga-            OIG completed multiple assign-                     equipment, and supplies, and
tions by obtaining, preserving, and            ments in support of this strategic                 downloading and processing
later examining evidence from                  goal area. Our Evaluations group                   data to necessary systems.
computers at the bank. During the              reviewed the FDIC’s Contingency                    We reported that the FDIC had
reporting period, OI attended 10               Planning for Large-Scale Reso-                     taken contingency planning
bank closings and provided foren-              lution Activity. With the failure                  seriously for a number of years
sics support for most of those.                of IndyMac in July, the IG and                     and had developed plans and
The OIG also coordinates closely               one of our staff conducted a                       processes for responding to
with DRR on concealment of assets              High-Level Controls Review of                      large-scale resolution activity.
cases. In many instances, the FDIC             the IndyMac Conservatorship.                       However, we made several
debtors do not have the means                  Additionally, our Office of Audits                 observations related to project
to pay fines or restitution owed to            conducted an audit of internal                     management of readiness efforts;
the Corporation. However, some                 control in the FDIC’s receivership                 scenarios and baseline assump-
individuals do have the means to               accounting process and an audit                    tions used in planning docu-
pay but hide their assets and/or lie           of protection of resolution and                    ments; logistics testing for large or
about their ability to pay. OI works           receivership data managed or                       multiple bank scenarios; viability
closely with both DRR and the                  maintained by FDIC contractors.                    and credibility of personnel
Legal Division in pursuing criminal            We also continued monitoring                       and contracting assumptions;
investigations of these individuals.           corporate efforts to prepare for                   and coordination and plan-
                                                                                                  ning for long-term IT needs.
28
We provided our observations to           audit and risk management staff         on behalf of the receiverships by
the Director of DRR, members of           that the new focus of the conser-       Corporation employees. Receiv-
the Resolution Policy Committee,          vatorship should be on maxi-            ership billings reduce the cash
selected division directors, the          mizing the value of the institution     available for dividend payments,
Acting Chief Operating Officer,           for a future sale, preserving the       including those to uninsured
and the Chairman. In light of the         value of the assets, protecting         depositors and other claimants.
FDIC’s increased workload due             customer rights, and maintaining        Therefore, the FDIC’s receivership
to actual and expected failures           public confidence. Additionally         service billing process is intended
that began to occur in July, we           we suggested that a Chief Audit         to ensure effective cost monitoring
concluded our work as of June 24,         Executive be appointed and              and that control activities are in
2008 so as not to interfere with          that planned audits and audit           place and observed to promote
resolution efforts, and we offered        issues be pursued. Finally, we          fairness in servicing operations.
to provide further assistance on          suggested that risk management          The Federal Deposit Insur-
the issues that we identified.            staff activities, mission, roles, and   ance Act permits the FDIC to
                                          responsibilities be agreed upon.        charge its receiverships all of
High-Level Controls Review of
                                          FDIC generally agreed with              the expenses of liquidation as
the IndyMac Conservatorship
                                          our suggestions and had                 are fixed by the FDIC. The FDIC
We conducted a high-level                 either taken or planned to              adopted an implementing
controls review of IndyMac Federal        take action in response.                regulation governing administra-
Bank, FSB, the conservatorship                                                    tive expenses of a receivership.
established for the closed thrift,        FDIC’s Receivership Service             Additionally, the FDIC has devel-
IndyMac Bank, F.S.B. in Pasadena,         Billing Process                         oped internal guidance related
California. Our objective was             We conducted an audit to assess         to cost monitoring and control
to provide FDIC management                the design and implementation           activities for receivership billings.
supervising the conservatorship           of controls over the FDIC’s receiv-     We concluded that the FDIC
with information and suggestions          ership service billing process.         has designed and implemented
regarding the continuing responsi-        Our audit focused on controls           controls over the receivership
bilities of the internal audit and risk   intended to ensure that receiver-       service billing process to ensure
management functions. Our intent          ships are fairly and accurately         that receiverships are fairly and
was to assist the FDIC in a timely        billed in accordance with appli-        accurately billed in accordance
manner in protecting the value of         cable laws and regulations.             with applicable laws and regu-
the conservatorship and its assets
                                          When an FDIC-insured institution        lations. The process for estab-
and the integrity of its operations.
                                          fails or is closed by a federal or      lishing the FDIC’s 2008 service
We issued a memorandum to                 state regulatory agency, the FDIC       line rates for receivership bill-
conservatorship management                is appointed as receiver. The FDIC      ings was documented in rate
and made four suggestions. These          billed $21 million in 2007 to 45        cases approved by the FDIC’s
included clearly articulating and         receiverships for work conducted        Chief Financial Officer for each
communicating to the internal                                                     service line. The six rate cases
                                                                                                                      29
we examined were accurately             reviews conducted, including the       institutions. Such information
calculated and fully supported.         reasonableness of the charges.         includes personally identifiable
                                                                               information (e.g., name, address,
Although adequate controls have         Management concurred with
                                                                               Social Security number, phone
been designed and implemented           our recommendation and is
                                                                               number, and account and loan
to ensure that billings by service      taking responsive action.
                                                                               data) for institution deposi-
line are reviewed, controls for
                                        Protection of Resolution and           tors, borrowers, and employees.
ensuring that billings are reviewed
                                        Receivership Data Managed              DRR’s BIS Section, located in the
for the receiverships can be
                                        or Maintained by an FDIC               FDIC’s Dallas Regional Office, is
strengthened. Specifically, DRR
                                        Contractor                             responsible for securing all the
is not providing the same level
                                                                               operating systems, data, and
of review to individual receiver-       The FDIC has established a risk-       hardware once a failing institu-
ships as that provided to the           based corporate-wide security          tion is closed. To that end, DRR
service lines. Such reviews, which      program and a privacy program          has established a Basic Ordering
include certification, provide          to protect the sensitive informa-      Agreement (BOA) to obtain IT
added assurance that billings are       tion the Corporation manages.          support for the BIS Section. A
reasonable. Fully documenting           These programs include guidance        BOA is an agreement setting forth
the receivership billing review         for contractors and FDIC to help       the terms and conditions to be
procedures, as well as the billing      ensure contractors are complying       applied to future task orders.
review results, and certifying the      with government-wide and FDIC
Receivership Oversight Section          information security policies and      We determined that DRR’s closing
reviews similar to the review           procedures.                            support BOA contains the neces-
process for service line billings                                              sary privacy and information
would help to ensure that the           We conducted an audit to (1)           security clauses consistent with
FDIC thoroughly and consistently        determine whether the closing          FDIC guidance that was in place
fulfills the role of advocate for the   support contract used by the DRR       when the FDIC awarded the
interests of the receiverships.         Business Information Systems (BIS)     contract. Moreover, the State-
                                        Section contains privacy and infor-    ment of Work contains a clause
We recommended that FDIC                mation security clauses to protect     requiring that the contractor
management strengthen the               pre-closing and failed institution     comply with all FDIC policies and
receivership advocacy role of the       data and (2) evaluate the steps        procedures, including any new
Receivership Oversight Section by:      the FDIC Oversight Manager (OM)        policies and procedures devel-
updating guidance, as necessary,        takes to ensure the contractor         oped during the contract term.
to clarify instructions for receiver-   is complying with privacy and
ship billing reviews performed,         information security clauses.          The OM is taking multiple steps to
including the frequency of                                                     ensure the contractor is aware of,
reviews; fully documenting the          The FDIC collects sensitive            and complying with, the privacy
review procedures performed;            information when conducting            and information security clauses.
and certifying or otherwise             resolution and receivership            For example, the OM reviewed
documenting the results of              activities at FDIC-insured financial   the contractor’s IT security plan
30
                                                  February 14, 1939: FDIC employees post a notice telling depositors
                                                  their bank had failed and that their deposits were protected up to
                                                  $5,000.




and routinely monitors the status      to submit such agreements                     the Corporation’s Claims Admin-
of background investigations for       and maintain copies of those                  istration System-specifically,
contractor personnel. The OM is        agreements in the contract file.              we are attending status meet-
planning to take additional steps      Management concurred with our                 ings of the working group and
to ensure the contractor has           recommendation and is taking                  offering perspectives to help
complied with the FDIC’s training      responsive corrective action.                 ensure the success of that effort.
requirements and to sustain
contractor attention regarding its     Monitoring the FDIC’s Strategic
responsibilities for safeguarding      Readiness Project
information. With regard to IT         The failure of a large bank is not
equipment, the OM is working           only one of the greatest risks to
to protect sensitive information       the DIF but it is also an event that
maintained on laptop computers         could shake the public’s confi-
formerly and currently in use.         dence in the nation’s financial
We noted one area that                 system. Recognizing its role in
warranted additional attention.        resolving failed institutions and
The Contracting Officer and OM         maintaining public confidence,
found confidentiality agreements       the FDIC developed a Strategic
for only 32 (70 percent) of 46         Readiness Project to test and
contractor personnel. Such agree-      evaluate its processes for handling
ments document an individual’s         a large bank failure. The purpose
understanding of, and commit-          of the project, which began in
ment to, safeguarding data and are     January 2007, was to test the
a key security requirement under       command and control plan associ-
the contract. FDIC policy and the      ated with a large bank failure,
BOA are clear that the Contracting     enhance the FDIC’s ability to
Officer is responsible for ensuring    determine an effective resolution
that contractor personnel sign the     strategy, advance knowledge of
agreements and for maintaining         the process, and identify lessons
them in the contract file.             learned. The FDIC’s Corporate
                                       University has directed this project
To further protect sensitive resolu-   and used focused exercises and
tion and receivership information,     high-level simulations to test and
we recommended that the FDIC           evaluate its processes. During
establish controls to ensure that      the reporting period, the OIG
Contracting Officers obtain signed     continued to monitor this project.
Confidentiality Agreements from
all contractor personnel required      We have also continued to monitor


                                                                                                                          31
     5                     Strategic Goal 5:
                           The OIG Will Promote
                           Sound Governance and
                           Effective Stewardship
                           and Security of Human,
                           Financial, IT, and
                           Physical Resources




     T
     The FDIC must effectively manage       as of September 30, 2008, due        ments of its information systems
     and utilize a number of critical       to the increase in receivership      containing personally identifiable
     strategic resources in order to        and resolution activity and the      information that is consistent
     carry out its mission successfully,    elevated examination workload.       with relevant privacy-related
     particularly its human, financial,     Most of the increase is for hiring   policy, guidance, and standards.
     IT, and physical resources.            non-permanent employees              Supplementing the FDIC work-
                                            to aid in the current crisis.
     Human Resources: In the after-                                              force are contractors providing
     math of corporate downsizing,          In the interest of making the FDIC   services for the Corporation.
     and in light of a growing number       an employer of choice, increasing    According to the Corporation’s
     of employees with retirement           FDIC employee engagement             New Financial Environment
     eligibility, the FDIC was faced        and empowerment, enhancing           data, the FDIC had $1.61 billion
     with significant human capital         trust between FDIC managers          in outstanding contracts as of
     challenges. The FDIC established       and employees, and refining the      September 30, 2008, and had
     a human capital framework and          Corporation’s pay-for-performance    awarded approximately $505
     strategy to guide its evolution        system, the Chairman of the FDIC     million in contracts during
     toward a more flexible permanent       spearheaded a comprehensive          2008. As a good steward, the
     workforce that would be capable        employee survey that was carried     FDIC must ensure it receives the
     of responding rapidly to significant   out by an independent consulting     goods and services purchased
     changes in the financial services      group during 2007. The Chairman      with corporate funds and have
     industry or unexpected changes         has shown her commitment to          effective contractor oversight
     in workload or priorities. The         effecting necessary changes          controls in place as well.
     implementation of the Corporate        based on the results of the survey   Financial Resources: The Corpo-
     Employee Program, the Succession       through her Culture Change Initia-   ration does not receive an
     Management Program, and the            tive, which is currently underway.   annual appropriation, except
     Leadership Development Program         In an age of identity theft risks,   for its OIG, but rather is funded
     are initiatives to that end. To        another human capital manage-        by the premiums that banks
     cross-train employees and build a      ment responsibility at the FDIC      and thrift institutions pay for
     more diverse and ready workforce,      is to maintain effective controls    deposit insurance coverage, the
     the FDIC also created the Profes-      to protect personal employee-        sale of assets recovered from
     sional Learning Account program        related information that the         failed banks and thrifts, and
     to allocate time and money             Corporation possesses. The           from earnings on investments
     for each qualified employee to         appointment of a chief privacy       in U.S. Treasury securities.
     manage, in partnership with            officer and implementation of
     the employee’s supervisor, the                                              The FDIC Board of Directors
                                            a privacy program have been          approves an annual Corporate
     employee’s learning goals.             positive steps in addressing that    Operating Budget to fund the
     The FDIC’s authorized staffing         challenge. Further, the FDIC         operations of the Corporation.
     increased from 4,810 at the            has established a process for        For 2008, the approved budget
     beginning of the year to 5,621         conducting privacy impact assess-    totaled $1.14 billion. The operating
32
budget provides resources for the       in insurance, supervision and          agency. Section 522 of the Consoli-
operations of the Corporation’s         consumer protection, and receiv-       dated Appropriations Act of 2005
three major programs or business        ership management, and to              requires agencies to establish and
lines—Insurance, Supervision, and       improve the operational effi-          implement comprehensive privacy
Receivership Management—as              ciency of its business processes.      and data protection procedures
well as its major program support       The FDIC needs to continue to          and have periodic third-party
functions (legal, administrative,       focus on the capital planning and      reviews performed of their
financial, IT, etc.). Program support   investment processes for IT and        privacy programs and practices.
costs are allocated to the three        maximize the effectiveness of the      Physical Resources: The FDIC
business lines so that the fully        Chief Information Officer Council      employs approximately 4,800
loaded costs of each business line      and Project Management Office,         people. It is headquartered in
are displayed in the operating          both of which play an important        Washington, D.C., but conducts
budget approved by the Board.           role in reviewing the portfolio of     much of its business in six
                                        approved IT projects and other
In addition to the Corporate                                                   regional offices and in field offices
                                        initiatives. The Corporation has
Operating Budget, the FDIC has a                                               throughout the United States.
                                        also worked to enhance its Enter-
separate Investment Budget that                                                Ensuring the safety and security of
                                        prise Architecture program by
is composed of individual project                                              the human and physical resources
                                        identifying duplicative resources/
budgets approved by the Board                                                  in those offices is a fundamental
                                        investments and opportunities for
of Directors for major investment                                              corporate responsibility that
                                        internal and external collaboration
projects. Budgets for invest-                                                  is directly tied to the Corpora-
                                        to promote operational improve-
ment projects are approved on a                                                tion’s successful accomplishment
                                        ments and cost-effective solu-
multi-year basis, and funds for an                                             of its mission. The FDIC needs
                                        tions to business requirements.
approved project may be carried                                                to be sure that its emergency
over from year to year until the        Along with the positive benefits       response plans provide for the
project is completed. A number          that IT offers comes a certain         safety and physical security of
of the Corporation’s more costly        degree of risk. In that regard,        its personnel and ensure that its
IT projects are approved as part of     information security has been          business continuity planning and
the investment budget process.          a long-standing and widely             disaster recovery capability keep
                                        acknowledged concern among             critical business functions opera-
Expenditures from the Corpo-
                                        federal agencies. The Federal Infor-   tional during any emergency.
rate Operating and Investment
                                        mation Security Management Act         Corporate Governance and
Budgets are paid from two funds
                                        requires each agency to develop,       Risk Management: The FDIC is
managed by the FDIC—the DIF
                                        document, and implement an
and the Federal Savings and Loan                                               managed by a five-person Board
                                        agency-wide information security
Insurance Corporation Resolution                                               of Directors, all of whom are
                                        program to provide adequate
Fund.                                                                          appointed by the President and
                                        security for the information and       confirmed by the Senate, with no
IT Resources: At the FDIC, the          information systems that support       more than three being from the
Corporation seeks to leverage           the operations and assets of the       same political party. The Board
IT to support its business goals
                                                                                                                  33
includes the Comptroller of the           •	Promote integrity in FDIC          the reporting period that fed into
Currency and the Director of the          	 internal operations.               our FISMA work, we contracted
Office of Thrift Supervision. Given       •	Promote alignment of IT with       with KPMG to audit and report
the relatively frequent changes           	 the FDIC’s business goals and      on the FDIC’s controls over the
in the Board make-up, it is essen-        	 objectives.                        confidentiality of sensitive email
tial that strong and sustainable                                               communications. Additionally,
governance and communication              •	Promote IT security measures       we audited controls over contract
processes be in place throughout          	 that ensure the confidentiality,   invoice approval, payment, and
the FDIC and that Board members           	 integrity, and availability of     posting to the general ledger. One
possess and share the information         	 corporate information.             of our evaluations addressed the
needed at all times to understand         •	Promote personnel and              energy efficiency of the FDIC’s
existing and emerging risks and           	 physical security.                 Virginia Square facility, including
make sound policy and manage-                                                  the Student Residence and IT
ment decisions.                           •	Promote sound corporate            Data Centers. Another evaluation
                                          	 governance and effective           this period followed up on work
Enterprise risk management is a           	 risk management and internal       we conducted for the Chairman
key component of governance.              	 control efforts.                   regarding IT procurement integ-
The FDIC’s numerous enterprise
                                                                               rity and governance. Again, at her
risk management activities need
                                        OIG Work in Support of Goal 5          request, we explored options for
to consistently identify, analyze,
                                        The OIG committed a number of          adding an independent review
and mitigate operational risks
                                        audit and evaluation resources         of IT project data at key decision
on an integrated, corporate-
                                        to work in this strategic goal area    points in the selection and control
wide basis. Additionally, such
                                        during the reporting period. We        phases of the IT governance
risks need to be communicated
                                        performed an audit of the Corpo-       process. Results of these reviews
throughout the Corporation and
                                        ration’s controls over contractor      are discussed below. Additionally,
the relationship between internal
                                        payments for relocation services       ongoing or planned work in this
and external risks and related
                                        and another audit of controls          area as of the end of the reporting
risk mitigation activities should
                                        over background checks of child        period includes evaluations of
be understood by all involved.
                                        care provider personnel. In the        the FDIC’s Corporate Employee
To promote sound governance                                                    Program and security guard
                                        IT area, we audited the reliability
and effective stewardship                                                      services and audits of the FDICcon-
                                        of information accessed through
and security of human, finan-                                                  nect system and the Corporation’s
                                        the Virtual Supervisory Informa-
cial, IT, and physical resources,                                              contract with Aramark.
                                        tion on the Net system. One of our
the OIG’s 2008 performance
                                        most comprehensive reviews was
goals were as follows:
                                        our audit of the FDIC’s informa-
     •	Evaluate corporate efforts to    tion security program, pursuant
     	 manage human resources and       to the Federal Information Secu-
     	 operations efficiently, effec-   rity Management Act of 2002. In
     	 tively, and economically.        another audit conducted during
34
                                                    First Board of Directors of the FDIC, sworn in at the Treasury Depart-
                                                    ment, Washington, DC, on September 11, 1933.




Energy Efficiency of the FDIC’s        discusses in the report. However,              One of our audits during the
Virginia Square Facility and           implementing these initiatives will            reporting period focused on
Information Technology Data            require additional investments,                determining whether the FDIC
Center                                 which we have not attempted to                 has sound controls in place to
                                       quantify. Consequently, we did not             ensure that costs billed to the
We engaged KPMG to conduct an
                                       claim monetary benefits resulting              FDIC by Cartus for relocation
evaluation of the Corporation’s
                                       from the recommendations.                      services are allowable, allocable,
efforts to conserve energy in its
                                                                                      and reasonable and in compli-
operations of the Virginia Square      The Division of Administration
                                                                                      ance with contract requirements.
facility, including the Student        (DOA) provided us a written
                                                                                      As part of the audit, we engaged
Residence Center and IT Data           response to the report and
                                                                                      the Defense Contract Audit
Center and identify opportuni-         concurred or partially concurred
                                                                                      Agency to examine selected
ties to further conserve energy        with all five recommendations.
                                                                                      invoices submitted by Cartus.
and/or reduce utility costs.
                                       Controls Over Contractor                       We found that the Corpora-
KPMG concluded that the FDIC           Payments for Relocation                        tion’s Division of Finance (DOF)
has taken a number of actions          Services                                       has implemented a number of
to improve the energy efficiency
                                       The Corporation provides reloca-               important controls designed to
of the Virginia Square facility
                                       tion services and reimbursement                ensure that payments to Cartus
and IT Data Center and identi-
                                       of expenses for FDIC employees                 for relocation services are allow-
fied leading practices that the
                                       who change their official duty                 able, allocable, and reasonable
FDIC has implemented that help
                                       station for the benefit of the FDIC.           and in compliance with contract
reduce energy consumption and
                                       Certain retirees also receive some             requirements. We also found
energy costs. KPMG identified
                                       relocation benefits. The FDIC                  that improvements are needed
opportunities to further improve
                                       has contracted with the Cartus                 in some areas to ensure sound
the FDIC’s energy manage-
                                       Corporation (Cartus) to provide                controls over the FDIC’s payments
ment efforts and, in that regard,
                                       eligible employees and retirees                to Cartus for relocation services.
made five recommendations.
                                       with relocation services. During               We recommended that the
KPMG has quantified the poten-         2006 and 2007, Cartus billed the               Director, DOF fully document
tial cost savings associated with      FDIC about $11 million for reloca-             the control activities associated
several specific initiatives associ-   tion expenses such as household                with contractor payments of the
ated with the Virginia Square          goods moving and storage costs,                monthly invoices for relocation
facility. We expect that the FDIC      lump-sum payments (such as                     expenses and the weekly invoices
can achieve and sustain far            airfare and lodging), miscellaneous            for the Home Sale Program
greater savings over time by           expense allowances, and real                   and formalize the monitoring
implementing the initiatives at        estate expenses. Cartus also billed            and periodic assessment of the
all FDIC-owned buildings and by        the FDIC about $7.8 million during             controls over contractor payments
establishing a more programmatic       2007 for advances of home equity               for relocation services as part of
and corporate-wide approach to         and mortgage payoffs related to                DOF’s internal control program.
energy management, as KPMG             the FDIC’s Home Sale Program.
                                                                                                                             35
DOF concurred with our                development centers warranting       monitor examination frequency
recommendations and plans             management’s attention. We           and determine deposit insur-
to take responsive actions.           made five recommendations to         ance assessments for financial
                                      address concerns identified during   institutions. The FDIC’s DSC is
Controls Over Background              the audit. The FDIC concurred        responsible for ensuring the
Checks of Child Care Provider         with our recommendations and         reliability of supervisory informa-
Personnel                             took prompt action in response.      tion in each of these four areas.
The FDIC’s DOA entered into a                                              We reviewed a sample of 75 of
                                      Reliability of Supervisory Infor-
Memorandum of Understanding                                                the 5,075 financial institutions for
                                      mation Accessed Through the
with the Finding Dreams In Chil-                                           which the FDIC was the primary
                                      Virtual Supervisory Information
dren Child Development Centers,                                            federal regulator as of April 3,
                                      on the Net (ViSION) System
Inc. (CDC) to provide the CDC                                              2008. For each of the 75 institu-
with space and certain services for   We conducted an audit to assess      tions, we verified supervisory
two child development centers         the reliability of key supervisory   information accessed through the
located in the FDIC’s headquarters    information accessed through         ViSION system to source docu-
offices. Key services provided by     the ViSION system, a mission-        mentation, such as hard copy
the FDIC under the Memorandum         critical FDIC system that provides   ROEs. We considered the informa-
of Understanding include building     access to a broad range of           tion we assessed to be reliable
security to help ensure a safe        information related to insured       if it was accurate and complete
physical environment for the          financial institutions in support    as described in the Government
children and background checks        of the Corporation’s insurance       Accountability Office’s publica-
to help ensure the suitability of     and supervision programs. The        tion Assessing the Reliability of
child care provider personnel.        system serves approximately          Computer-Processed Data.
                                      3,900 FDIC and outside agency
We conducted an audit to assess                                            Supervisory information accessed
                                      users (primarily other federal
the FDIC’s controls for performing                                         through the ViSION system was
                                      and state regulatory agencies).
background checks of child care                                            not fully reliable in each of the
provider personnel working in the     Key supervisory information          four areas that we assessed.
FDIC’s child development centers.     accessed through the ViSION
                                                                           Unreliable information accessed
As part of the audit, we performed    system includes: (1) examina-
                                                                           through the ViSION system can
limited procedures to assess          tion ratings used to evaluate the
                                                                           limit the efficiencies that the FDIC
building security services related    safety and soundness of financial
                                                                           intended to achieve through
to the child development centers.     institutions; (2) BSA examina-
                                                                           automation such as accurate,
                                      tion information reported to the
We found that controls over                                                timely, and consistent data used
                                      Department of the Treasury; (3)
background checks of child                                                 for off-site monitoring of financial
                                      safety and soundness Reports
care provider personnel needed                                             institutions. In addition, because
                                      of Examination (ROE) provided
improvement, and we also identi-                                           ROE processing dates are used in
                                      to financial institutions; and (4)
fied building security vulner-                                             determining deposit insurance
                                      ROE processing dates used to
abilities related to the child                                             assessments, the reliability of
36
those dates is critical to ensuring   the results of the assessment.        tion security provisions of FISMA
the integrity of premiums charged     DSC concurred with our recom-
                                                                            and standards and guidelines of
to insured financial institutions.    mendation and has planned
                                                                            the National Institute of Standards
                                                                            and Technology. Importantly, the
DSC has taken steps to promote        to take responsive actions.
                                                                            FDIC had established policies
the reliability of information
                                      Independent Evaluation of the         and procedures in substantially
accessed through the ViSION
                                      FDIC’s Information Security           all of the security control areas
system. For example, DSC peri-
                                      Program-2008                          KPMG evaluated. The FDIC had
odically reviews the integrity of
                                                                            also implemented a number
selected information accessible       We contracted with KPMG to            of important security control
through the ViSION system as part     conduct an independent evalu-         improvements in response to
of the division’s internal reviews.   ation of the FDIC’s information       KPMG’s 2007 evaluation, such as
DSC also identified concerns          security program and practices        enhancing its encryption capabili-
regarding the reliability of ROE      pursuant to FISMA. FISMA requires     ties and strengthening its corpo-
information prior to our audit        federal agencies, including the       rate privacy program. Additional
and was working to improve its        FDIC, to have an annual indepen-      control improvements were also
processes and technology for          dent evaluation performed of their    underway at the close of the audit.
collecting, processing, and storing   information security program and
electronic ROEs. However, DSC         practices and to report the results   The above accomplishments were
had not performed an assess-          of the evaluation to the Office of    positive. However, KPMG identified
ment of supervisory information       Management and Budget (OMB).          a number of information security
accessed through the ViSION           The objective of the evaluation       control deficiencies warranting
system to determine an accept-        was to determine the effective-       management attention. Of
able information accuracy rate.       ness of the FDIC’s information        particular note, KPMG identified
Establishing an information accu-     security program and practices,       access control deficiencies within
racy rate is important for ensuring   including the FDIC’s compliance       the FDIC’s internal network that
cost-beneficial controls over the     with FISMA and related informa-       presented a high risk of unau-
reliability of information accessed   tion security policies, procedures,   thorized disclosure of sensitive
through the ViSION system.            standards, and guidelines.            information or compromise of
                                                                            IT resources. While the FDIC was
We therefore recommended that         In general, with respect to the IT    taking prompt action to address
the Director, DSC, conduct an         systems and common controls           these access control deficiencies,
assessment of key supervisory         reviewed, KPMG found that the         increased management atten-
information accessed through          related program and operational       tion in this area is warranted.
the ViSION system in order to         controls demonstrated effective-      The report identifies eight steps
define an acceptable accuracy         ness while management and             that the Corporation can take to
rate and identify respective          technical controls warranted          improve the effectiveness of its
controls and responsibilities         management attention. The FDIC        information security program
over the reliability of supervi-      continues to build upon its past      controls in the areas of Risk
sory information consistent with      success in addressing the informa-
                                                                                                             37
Assessment; Planning; Certifica-          number of key controls in place        Opportunities for Independent
tion, Accreditation, and Security         to protect the confidentiality         Review of Information Tech-
Assessments; Media Protection;            of sensitive email communica-          nology Projects
Awareness and Training; Iden-             tions. Such controls include,          During a previous evaluation, we
tification and Authentication;            for example, a corporate policy        reported that the FDIC has an
Access Control; and Audit and             governing the encryption of            IT governance framework and
Accountability. In many cases,            sensitive email communications;        processes in place that gener-
the FDIC was already working              an enterprise-wide email encryp-       ally align with government-wide
to improve security controls in           tion solution; background checks       norms. Notwithstanding that prior
these areas during KPMG’s audit.          and confidentiality agreements         conclusion, at the Chairman’s
                                          for administrators supporting
Because this report addresses                                                    request, we explored and commu-
                                          the email infrastructure; and a
issues associated with information                                               nicated back to her options for
                                          security awareness and training
security, it is not publicly available.                                          consideration that would add
                                          program addressing, among              independent review of IT project
Controls for Protecting the               other things, the protection of        data at key decision points in the
Confidentiality of Sensitive              sensitive email communica-             selection and control phases of the
Email Communications                      tions. The Division of Informa-        IT governance process. We pointed
                                          tion Technology (DIT) was also         out that doing so would provide
The FDIC uses email extensively,          working to implement a number
internally and externally, to                                                    the Chairman, the Board, and
                                          of additional email security control   management with greater assur-
exchange business information             improvements during the audit.
such as open bank data, contract                                                 ance that information presented
negotiations, personnel data,             While such actions were posi-          for project status or decision-
and legal matters. Protecting             tive, controls over administrator      making purposes had been
the confidentiality of sensitive          access to the email infrastructure     objectively and completely vetted.
email communications requires             needed to be strengthened. In          The report we issued to her also
a comprehensive set of security           addition, KPMG identified several      provided perspective on the
controls and sustained vigi-              potential control enhancements         difficulties that federal agencies
lance to address current and              intended to further mitigate           encounter in implementing large
emerging security threats.                the risk of email exposure at the      IT investments, other agencies’
                                          FDIC that DIT should assess for        practices in this area, a brief
We contracted with KPMG to                implementation. KPMG made two
conduct an audit to assess the                                                   discussion of the pros and cons of
                                          recommendations for improve-           adding independent review to the
FDIC’s controls for protecting            ments. The FDIC concurred with
the confidentiality of sensitive                                                 current governance framework,
                                          both recommendations, and its          and FDIC management’s views
email communications and to               planned actions were respon-
identify opportunities for miti-                                                 regarding existing forms of review
                                          sive to the recommendations.           that management considers to be
gating risk where appropriate.
                                                                                 independent. Finally, the report
KPMG found that the FDIC had a                                                   emphasized the importance of
38
Chairman and Board engage-            posting of the payment transac-
ment in IT issues, open and clear     tions. Additionally, the FDIC has
communication between the             enhanced its Contract Over-
Chairman and Chief Information        sight Management Program to
Officer, and timely and forthright    ensure that oversight managers
discussion of IT project health.      receive and complete training
                                      regarding their roles in indepen-
FDIC’s Controls Over Contractor       dently reviewing and approving
Invoice Approval, Payment, and        contractor invoices for payment.
Posting to the General Ledger
                                      Based on our review of the 30
Of the FDIC’s $992 million in         sampled contractor invoices,
calendar-year 2007 operating          representing total FDIC expen-
expenses, over $250 million           ditures of $5.7 million, we found
represents amounts paid for           that additional control activities
contracted goods and services.        could improve the oversight
Through June 2008, $121 million       manager’s review and approval
of $495 million in operating          procedures. Thus, to better ensure
expenses was for contractor           the effectiveness and efficiency of
payments, part of which was paid      operations, reliability of financial
based on contractor invoices.         reporting, and compliance with
We conducted an audit to assess       FDIC policies and procedures,
the FDIC’s controls over contractor   we recommended that DOF and
invoice approval, payment, and        DOA ensure the segregation of
posting to the General Ledger. Our    duties for invoice preparation
review included a sample of 30 of     and approval. We also recom-
1,148 FDIC invoices, representing     mended DOA ensure that the
$5.7 million in contractor invoice    OMs receive confirmation letters;
payments that totaled $37.5           complete required training; and
million during the period October     maintain current, accurate, and
2007 through March 2008.              complete documentation in the
                                      Corporation’ official system of
The FDIC has established and          records for contract activities.
implemented generally adequate
controls over contractor invoice      DOA and DOF concurred with our
approval, payment, and posting        recommendations and planned
to the general ledger. The New        to take responsive actions.
Financial Environment provides
an audit trail from the autho-
rized invoice approval through
                                                                             39
     6                      Strategic Goal 6:
                            OIG Internal Processes:
                            Build and Sustain a High-Quality
                            Staff, Effective Operations, OIG
                            Independence, and Mutually
                            Beneficial Working Relationships




     W
     While the OIG’s audit, evalua-         independence. The OIG adheres to       The OIG also places a high
     tion, and investigation work is        the Quality Standards for Federal      priority on maintaining positive
     focused principally on the FDIC’s      Offices of Inspector General, issued   relationships with the Congress
     programs and operations, we have       by the President’s Council on          and providing timely, complete,
     an obligation to hold ourselves to     Integrity and Efficiency (PCIE) and    and high quality responses to
     the highest standards of perfor-       the Executive Council on Integ-        congressional inquiries. In most
     mance and conduct. We seek to          rity and Efficiency (ECIE), soon to    instances, this communication
     develop and retain a high-quality      be combined in a single Council.       would include semiannual reports
     staff, effective operations, OIG       Further, the OIG conducts its audit    to the Congress, issued audit and
     independence, and mutually             work in accordance with generally      evaluation reports, information
     beneficial working relation-           accepted Government Auditing           related to completed investiga-
     ships with all stakeholders.           Standards; its evaluations in accor-   tions, comments on legislation
                                            dance with PCIE Quality Standards      and regulations, written state-
     To ensure a high-quality staff,
                                            for Inspections; and its investiga-    ments for congressional hear-
     we must continuously invest in
                                            tions, which often involve allega-     ings, contacts with congressional
     keeping staff knowledge and
                                            tions of serious wrongdoing that       staff, responses to congressional
     skills at a level equal to the work
                                            may involve potential violations       correspondence, and materials
     that needs to be done, and we
                                            of criminal law, in accordance with    related to OIG appropriations.
     emphasize and support training
                                            Quality Standards for Investiga-
     and development opportunities                                                 The Inspectors General appointed
                                            tions established by the PCIE and
     for all OIG staff. We also strive to                                          by the President and confirmed
                                            ECIE, and procedures established
     keep communication channels                                                   by the Senate are members of the
                                            by the Department of Justice.
     open throughout the office. We                                                PCIE. We have fully supported and
     are mindful of ensuring effec-         Strong working relationships are       participated in PCIE activities and
     tive and efficient use of human,       fundamental to our success. We         coordinate closely with represen-
     financial, IT, and procurement         place a high priority on main-         tatives from the other the financial
     resources in conducting OIG            taining positive working relation-     regulatory OIGs. Additionally, the
     audits, evaluations, investiga-        ships with the FDIC Chairman,          OIG meets with representatives
     tions, and other support activities,   Vice Chairman, other FDIC Board        of the U.S. Government Account-
     and have a disciplined budget          members, and management                ability Office to coordinate work
     process to see to that end.            officials. The OIG is a regular        and minimize duplication of
                                            participant at Audit Committee         effort and with representatives
     To carry out our responsibilities,
                                            meetings where recently issued         of the Department of Justice,
     the OIG must be professional,
                                            audit and evaluation reports           including the FBI and U.S. Attor-
     independent, objective, fact-
                                            are discussed. Other meetings          neys’ Offices, to coordinate our
     based, nonpartisan, fair, and
                                            occur throughout the year as           criminal investigative work and
     balanced in all its work. Also, the
                                            OIG officials meet with division       pursue matters of mutual interest.
     IG and OIG staff must be free both
                                            and office leaders and attend
     in fact and in appearance from                                                The FDIC OIG has its own strategic
                                            and participate in internal FDIC
     personal, external, and organi-                                               and annual planning processes
                                            conferences and other forums.
     zational impairments to their
40
independent of the Corporation’s       beneficial working relationships,
planning process, in keeping with      the OIG’s 2008 performance goals
the independent nature of the          were as follows:
OIG’s core mission. The Govern-
                                         •	Effectively and efficiently
ment Performance and Results
                                         	 manage OIG human, financial,
Act of 1993 (GPRA) was enacted
                                         	 IT, and physical resources
to improve the management,
effectiveness, and accountability        •	Ensure quality and efficiency of
of federal programs. GPRA requires       	 OIG audits, evaluations, investi-
most federal agencies, including         	 gations, and other projects and     Summer intern Alan Kolick, College of
the FDIC, to develop a strategic         	 operations                          William & Mary
plan that broadly defines the            •	Encourage individual growth
agency’s mission and vision, an          	 and strengthen human capital
annual performance plan that             	 management and leadership
translates the vision and goals of       	 through professional develop-
the strategic plan into measurable       	 ment and training
objectives, and an annual perfor-
mance report that compares actual        •	Foster good client, stakeholder,
results against planned goals.           	 and staff relationships

The OIG strongly supports GPRA           •	Enhance OIG risk management
and is fully committed to applying       	 activities
its principles of strategic planning   A brief listing of OIG activities in
and performance measurement            support of these performance            Summer intern Donzell Tate, McDaniel College
and reporting to our operations.       goals follows.
The OIG’s Business Plan lays the
basic foundation for establishing
goals, measuring performance,
and reporting accomplishments
consistent with the principles
and concepts of GPRA. We are
continuously seeking to better
integrate risk management
considerations in all aspects of
OIG planning—both with respect
to external and internal work.                                                 Wade Walters, Social Security Administration
                                                                               Senior Executive Service candidate
To build and sustain a high-quality
staff, effective operations, OIG
independence, and mutually
                                                                                                                       41
            Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
     1   Developed OIG staffing plan and related priorities in the interest of succession planning and to ensure
         that OIG staff is sufficient to address work challenges ahead.
     2   Continued realignment of the OIG investigative resources with FDIC regions, by reassigning OI staff,
         and advertising and filling vacancies.
     3   Prepared informational materials outlining needed financial resources for presentation to the FDIC
         Chairman, OMB, and the House and Senate Appropriations Subcommittees in support of the OIG’s FY
         2009 and 2010 budget requests.
     4   Carried out an initiative to train all OIG employees and contractors on the use of various encryption
         tools.
     5   Increased OIG security awareness by creating links from the OIG’s internal Web site to the FDIC informa-
         tion security program and encryption guidance Web sites.
     6   Continued a project to upgrade STAR—the OIG’s audit and evaluation tracking system—and an associ-
         ated review of how we are using TeamMate as we conduct audits and evaluations in the interest of
         leveraging that technology and ensuring efficiency in our work.
     7   Explored opportunities to leverage the resources of OI’s ECU and Office of Audit’s computer lab, staffs,
         equipment, and IT staff in the Office of Management.
     8   Continued to partner with DIT to ensure the security of OIG information in the FDIC computer network
         infrastructure.


         Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and Other Projects
                                               and Operations
     1   Implemented new OA policies and procedures, including a revised assignment management process
         to better ensure efficiency, effectiveness, and quality of efforts.
     2   Continued to use a contract awarded to a qualified firm to provide audit and evaluation services to
         the OIG to enhance the quality of our work and the breadth of our expertise as we conduct audits and
         evaluations and closely monitored contractor performance.
     3   Continued to maintain and update the OIG’s Dashboard—a project management monitoring, tracking,
         and reporting tool for OIG projects.
     4   Took steps to better monitor costs associated with audits and evaluations in the interest of
         economy and efficiency. Reduced average time and cost of audit and evaluation assignments.
     5   Continued use of the OIG’s end-of-assignment feedback forms to provide staff with input on perfor-
         mance of individual audit and evaluation assignments and incorporated suggested improvements to
         the form.
     6   Implemented a new IG Feedback form for audit and evaluation assignments that focuses on overall
         assignment quality elements, including time, cost, and value.
     7   Updated and revised Office of Evaluations policies and procedures to establish guidance for
         conducting work in accordance with inspection standards promulgated by the PCIE.
     8   Conducted quality control reviews of the OIG’s investigative operations in the Midwest
         region, and of OA’s coverage of laws and regulations in performance audits.
     9   Conducted a peer review of the investigative operations of the Environmental Protection Agency OIG,
         as required by the PCIE.



42
Encourage Individual Growth and Strengthen Human Capital Management and Leadership Through
                            Professional Development and Training
1    Implemented revised OIG Career Development Plan forms, making them more aligned with OIG
     strategic goals and the training, skills, and experience needed to better achieve those goals. Also inte-
     grated OIG training plans into the forms.
2    Expanded use of forensic accountant positions—to allow OIG staff with accounting skills to assist OIG
     investigators in conducting investigations of mortgage fraud and other financial institution fraud cases.
3    Continued to support members of the OIG attending long-term graduate banking school programs
     sponsored by Stonier, the Southeastern School of Banking at Vanderbilt University, and the Univer-
     sity of Wisconsin to enhance OIG staff expertise and knowledge of the banking industry.
4    Planned for a material loss review training program to better equip OIG staff with skills and expertise
     needed to meet demands of increased material loss review workload.
5    Participated in FBI-sponsored training in mortgage fraud to help ensure that OIG investigators and
     others involved have the requisite knowledge to investigate the growing number of mortgage fraud
     schemes perpetrated throughout the country.
6    Hosted two summer interns in our Offices of Audits and Investigations. Also hosted a candidate for
     the Social Security Administration’s Senior Executive Service Candidate Development Program.


                      Foster Good Client, Stakeholder, and Staff Relationships
1    Maintained Congressional working relationships by providing our Semiannual Report to the Congress
     for the 6 month period ending March 31, 2008; communicating with and providing requested materials
     to the cognizant Subcommittees of the Senate and House Committees on Appropriations regarding
     our FY 2009 budget; notifying interested congressional parties regarding the OIG’s completed audit
     and evaluation work; attending or monitoring FDIC-related hearings on issues of concern to various
     oversight committees; coordinating with the Corporation’s Office of Legislative Affairs on issues of
     mutual interest; and providing input to staff on the House Financial Services and Senate Banking
     Committees regarding oversight issues in the Emergency Economic Stabilization Act of 2008.
2    Communicated with the FDIC Chairman, Vice Chairman, Director Curry, and other senior FDIC
     officials through the IG’s regularly scheduled meetings with them and through other forums.
3    Participated in DSC regional meetings to provide general information regarding the OIG and
     OI case studies on bank frauds that are of importance to DSC and the banking industry.
4    Held quarterly meetings with FDIC Directors and other senior officials to keep them apprised of
     ongoing audit and evaluation reviews and results.
5    Kept DSC, DRR, the Legal Division, and other FDIC program offices informed of the status and results
     of our investigative work impacting their respective offices. This was accomplished by notifying FDIC
     program offices of recent actions in OIG cases and providing OI’s quarterly reports to DSC, DRR, the
     Legal Division, and the Chairman’s Office outlining activity and results in our cases involving closed and
     open banks, asset and restitution cases.
6    Participated at FDIC Audit Committee meetings to present the results of significant completed audits
     and evaluations for consideration by Committee members.
7    Reviewed 10 draft corporate policies on a range of topics. Among the policies we reviewed were those
     related to the following: Enterprise Data Management Program, IT Contingency Planning, Acquisition
     Policy Manual, and Standards of Ethical Conduct.




                                                                                                                 43
     8    Supported the IG community by having the IG serve as Chair of the PCIE Audit Committee and coor-
          dinating the activities of that group; attending monthly PCIE meetings and participating in Inspection
          & Evaluation Committee and Council of Counsels to the IGs meetings; loaning staff to the Department
          of the Treasury OIG for material loss review work; providing investigative and counsel resource assis-
          tance to the Federal Housing Finance Board; and providing support to the IG community’s investigative
          meetings and training activities.
     9    Met regularly with representatives of the OIGs of the federal banking regulators (Board of Governors of
          the Federal Reserve System, Department of the Treasury, National Credit Union Administration, Securi-
          ties and Exchange Commission, Farm Credit Administration, Commodity Futures Trading Commission,
          Federal Housing Finance Board, and EX-IM Bank) to discuss audit and investigative matters of mutual
          interest.
     10   Continued to hold quarterly meetings of the OIG’s Employee Advisory Group to provide the elected
          staff an opportunity to meet with the IG to discuss issues of OIG-wide interest or concern.
     11   Continued to post and/or update information on the FDIC OIG Internet (www.fdicig.gov) and Intranet
          sites to ensure transparency and stakeholder accessibility to OIG products, including Semiannual
          Reports to the Congress, audit and evaluation reports, and investigation-related press releases.


                                    Enhance OIG Risk Management Activities
     1    Continued efforts to carry out and monitor the OIG’s FY 2008 business planning process, including
          holding meetings to assess progress and begin planning for FY 2009. Held a series of internal OIG meet-
          ings to identify significant activities and risks within the Corporation and the financial services industry.
     2    Participated regularly at corporate meetings of the National Risk Committee and kept current with the
          FDIC’s Risk Analysis Center presentations to monitor emerging risks at the Corporation and tailor OIG
          work accordingly.
     3    Conducted activities in support of the OIG’s 2008 assurance statement to the Chairman under which
          the OIG provides assurance that our office has made a reasonable effort to meet the internal control
          requirements of the Federal Managers’ Financial Integrity Act, OMB A-123, and other key legislation.
     4    Identified key hard copy and electronic records that the OIG should maintain in a secure off-site loca-
          tion to ensure continuity of operations in the event of an emergency and conveyed those to the site.
     5    Revised OIG Business Continuity Plan to reflect steps for restoring critical OIG business processes.
     6    Issued updated guidance related to the OIG’s readiness to respond in an office emergency situation.




44
                   Cumulative Results (2-year period)
                                             Nonmonetary Recommendations
                    October 2006 - March 2007                                              35
                    April 2007 - September 2007                                            07
                    October 2007 - March 2008                                              52
                    April 2008 - September 2008                                            24



                   Products Issued and Investigations Closed
                                                                                  40
L E G E N D                                                             39
                                                                                  35
•   10/06 - 3/07                                           30                     30
•   4/07 - 9/07                                                                   25
                                                                23
•   10/07 - 3/08                                                                  20
•   4/08 - 9/08                                                                   15
                                 15     15                                   14
                       11   12
                                                                                  10
                                                                                   5
                                                                                   0

                          Audits &                         Investigations
                         Evaluations


                   Fines, Restitution, and Monetary Recoveries
                   Resulting from OIG Investigations
                   (in millions)
L E G E N D                                                     352.9
                                                                                  400

•   10/06 - 3/07                                                                  300
•   4/07 - 9/07
•   10/07 - 3/08                                                                  200
•   4/08 - 9/08                                     86.9
                                 75.6                                             100
                                             40.7

                                                                                       0




                                                                                                45
Fiscal Year 2008
Performance Report

This performance report presents an overview of our performance compared to the fiscal year (FY) 2008 annual
performance goals in our Business Plan. It provides a statistical summary of our qualitative goals as well as a narrative
summary of performance results by Strategic Goal. It also shows our results in meeting a set of quantitative goals that
we established for the year. Our complete 2008 Business Plan is available at www.fdicig.gov.
We formulated six strategic goals, as shown in the table below. Each of our strategic goals, which are long-term efforts,
has annual performance goals and key efforts that represent our initiatives in FY 2008 toward accomplishing the
strategic goal. The table reflects the number of performance goals that were Met, Substantially Met, or Not Met. This
determination was made through ongoing discussions at the OIG Executive level and a qualitative assessment as to the
impact and value of the audit, evaluation, investigation, and other work of the OIG supporting these goals throughout
the year.
As shown in the table, we met or substantially met all of our performance goals in FY 2008. A discussion of our success
in each of the goals follows the table.
 Fiscal Year 2008 Annual Performance Goal Accomplishment
 (Number of Goals)

                                                                                            Performance Goals
                                  Strategic Goals                                         Substantially    Not
                                                                                  Met                              Total
                                                                                              Met          Met
 Supervision: Assist the FDIC to Ensure the Nation’s Banks Operate Safely and      1            1                    2
 Soundly
 Insurance: Help the FDIC Maintain the Viability of the Insurance Fund             1            1                    2
 Consumer Protection: Assist the FDIC to Protect Consumer Rights and Ensure        1            1                    2
 Customer Data Security and Privacy
 Receivership Management: Help Ensure that the FDIC is Ready to Resolve Failed     1            1                    2
 Banks and Effectively Manages Receiverships
 FDIC Resources Management: Promote Sound Governance and Effective                 2            4                    6
 Stewardship and Security of Human, Financial, IT, and Physical Resources
 OIG Internal Processes: Build and Sustain a High-Quality OIG Staff, Effective     3            2                    5
 Operations, OIG Independence, and Mutually Beneficial Working Relationships
 Total                                                                             9           10                    19
 Percentage                                                                        47          53                   100




46
Strategic Goal 1 - Supervision: Assist the FDIC to Ensure
the Nation’s Banks Operate Safely and Soundly
Our work in helping to ensure that the nation’s banks operate safely
and soundly took the form of audits, investigations, evaluations,
and extensive communication and coordination with FDIC divisions
and offices, law enforcement agencies, other financial regulatory
OIGs, and banking industry officials. During the past FY, we issued a
report on the implementation of the FDIC’s supervisory guidance for
nontraditional mortgage products, focusing on the FDIC’s response
to worsening conditions in the mortgage industry and looking at the
relatively small number of FDIC-supervised institutions with significant
involvement in such products. We also completed audits of the FDIC’s
consideration of commercial real-estate concentration risk in FDIC-
supervised institutions, the FDIC’s examination assessment of interest
rate risk and liquidity risk, and its controls over the CAMELS rating
review process. Another of our audits reviewed the FDIC’s implementa-
tion of the USA PATRIOT Act, noting that comprehensive examination
procedures are in place to evaluate institution compliance with the
anti-money laundering and terrorist financing provisions of the Act.
With respect to investigative work, as a result of cooperative efforts with
U.S. Attorneys throughout the country, numerous individuals were pros-
ecuted for financial institution fraud, and we achieved successful results in
combating a number of mortgage fraud schemes. In total, during the past
performance year, we reported 123 indictments/informations; 103 convic-
tions; and fines, restitution, and monetary recoveries of $440 million.
Noteworthy results include the stiff sentencings of multiple subjects for
mortgage fraud. To illustrate, a Dallas businessman was sentenced to 262
months of incarceration and ordered to pay restitution of $2 million. In
another case, an Illinois businessman and his associate were sentenced
to 235 months and 97 months, respectively, for their role in an $8 million
real estate land flip scheme. Another purported real estate investor was
sentenced to 11 years in prison and ordered to pay $1.4 million to victim
banks and mortgage lenders. In another case involving bank fraud, the
former president and chief executive officer of Farmers Deposit Bank,
Eminence, Kentucky, was sentenced to 36 months of incarceration and
ordered to pay restitution of more than $13 million to the bank. Another of
our investigations led to the sentencing of the former president and loan
officer of the Bank of Paxton to 60 months of incarceration, and he was
similarly ordered to pay restitution of $4.9 million to the bank. A former
loan customer, who was also a principal figure in the music industry, was
sentenced to 25 years in prison, to be followed by 3 years of probation
for his role in a massive bank fraud involving 10 financial institutions.
He was ordered to pay a total of more than $310 million in restitution.
The Office of Investigations also continued its close coordination and
outreach with the Division of Supervision and Consumer Protection
(DSC), the Division of Resolutions and Receiverships, and the Legal Divi-
sion by way of attending quarterly meetings, regional training forums,
and regularly scheduled meetings with DSC and the Legal Division to
review Suspicious Activity Reports and identify cases of mutual interest.




                                                                            47
     Strategic Goal 2 - Insurance: Help the FDIC Maintain the
     Viability of the Insurance Fund
     We conducted audit work related to the FDIC’s receipt and assessment
     of savings association subsidiary notices, at the request of staff from
     the U.S. Senate Committee on Banking, Housing and Urban Affairs. We
     reported that the FDIC had developed an adequate control process
     for reviewing the subsidiary notices that it received from institutions.
     At the end of the reporting period, ongoing work in this goal area
     included an audit of the Corporation’s off-site monitoring activities
     for insurance risk and an audit of the FDIC’s investment management
     practices related to the Deposit Insurance Fund, the results of which
     will be included in an upcoming semiannual report. The OIG’s ongoing
     work in conducting material loss reviews of failed institutions (of which
     four were on-going as of the end of the reporting period) also serves
     to help maintain the viability of the fund, as we seek to determine the
     causes of failure and make recommendations to prevent future losses.
     Similarly, OIG investigations have supported this goal in that inves-
     tigations often lead to successful prosecutions of fraud in finan-
     cial institutions and/or fraud that can cause losses to the fund.



     Strategic Goal 3 - Consumer Protection: Assist the FDIC
     to Protect Consumer Rights and Ensure Customer Data
     Security and Privacy
     Audits and investigations contributed to the FDIC’s protection of consumers
     in several ways. We completed our audit of examination procedures for
     assessing controls to protect customer and consumer information at
     multi-regional data processing servicers. In that report we made recom-
     mendations to better ensure examination procedures at technology
     service providers are commensurate with the risk of unauthorized
     access to customer and consumer information and applied consistently
     across FDIC regions. At the end of the reporting period, we had several
     assignments ongoing or planned in support of this goal, including an
     audit of consumer credit underwriting practices in community banks.
     At the Chairman’s request, our evaluations group is also conducting
     work in the area of enforcement actions for compliance violations.
     From an investigative standpoint, as a result of an ongoing investigation,
     two securities sales representatives pleaded guilty to a fraud scheme where
     they misled elderly investors into believing that their funds were invested
     in FDIC-insured certificates of deposit when, in fact, they were not. Addi-
     tionally, the former owner of the securities firm pleaded guilty to securities
     fraud for his role in the marketing scheme. The OIG’s Electronic Crimes Unit
     (ECU) was also successful in working to deactivate a total of 51 fraudu-
     lent email accounts involving false claims of FDIC insurance or affiliation.
     The ECU responded to Internet-based schemes where the FDIC and OIG
     Web sites were misused to entice consumers to divulge personal informa-
     tion and successfully shut down two Web sites used for such purposes.




48
Strategic Goal 4 - Receivership Management: Help Ensure
that the FDIC is Ready to Resolve Failed Banks and
Effectively Manages Receiverships
At FDIC management’s request, we completed an evaluation assign-
ment related to the FDIC’s Claims Administration System, a development
effort to automate the handling of deposit insurance determination
functions and the processing and payment of claims associated with
failed financial institutions. We made four suggestions to manage-
ment as a result. We also conducted an evaluation of the Corpora-
tion’s contingency planning for large-scale resolution activity, and
communicated our observations to FDIC senior management officials.
We continued to monitor the FDIC’s Strategic Readiness Project. With
the failure of IndyMac in July 2008, we also performed a high-level
controls review of the IndyMac conservatorship. Other work in support
of the goal included an audit of internal control in the FDIC’s receiver-
ship accounting process and an audit of protection of resolution and
receivership data managed or maintained by FDIC contractors.
We continued to pursue concealment of assets investigations related to
the more than $1.7 billion in criminal restitution that the FDIC is owed. In
connection with one such investigation, during the performance reporting
period, a debtor who had previously claimed he could not pay was
ordered to make a restitution payment of more than $400,000 to the FDIC.



Strategic Goal 5 - Resources Management: Promote
Sound Governance and Effective Stewardship and
Security of Human, Financial, IT, and Physical Resources
The OIG devoted substantial resources to this goal area during the
FY, resulting in a variety of issues addressed. Of note with respect to
this strategic goal, we issued the results of our review of the Corpora-
tion’s enterprise risk management program, making seven recom-
mendations and two suggestions for enhancements. At the Chairman’s
request, we also assessed the integrity of the FDIC’s information tech-
nology (IT) procurement activity and the FDIC’s governance framework
related to the selection, management, and evaluation of IT projects
and made recommendations for enhancements in both areas. We
later conducted follow-on work on options for independent review
of IT project data at key decision points in the selection and control
phases of the IT governance process. We performed a related audit to
assess the FDIC’s contract oversight management of its $357 million
IT infrastructure services contract and support for payments made by
the FDIC under the contract, making recommendations in that report
to strengthen governance and promote transparency and commu-
nication throughout the infrastructure services contract program.
We issued several other audit and evaluation reports in this goal area
and made suggestions to improve the quality and reliability of the
Corporation’s telework participation data and further enhance secu-
rity of data used when teleworking; strengthen controls over the
headquarters and Dallas transit subsidy programs; enhance features
of the Corporation’s IT disaster recovery program and related security
controls; enhance controls for the continuous replacement and disposal
                                                                           49
process for laptop computers; and implement steps to improve the
FDIC’s energy management practices. We performed an audit of the
Corporation’s controls over contractor payments for relocation services
and another audit of controls over background checks of child care
provider personnel. In the IT area, we also audited the reliability of
information accessed through the Virtual Supervisory Information on
the Net system. We engaged KPMG, LLP to audit the FDIC’s informa-
tion security program, pursuant to the Federal Information Security
Management Act of 2002 (FISMA). In another audit that fed into our
FISMA work, KPMG audited the FDIC’s controls over the confidenti-
ality of sensitive email communications and made recommendations
to strengthen those controls. Additionally, we audited controls over
contract invoice approval, payment, and posting to the general ledger.
We also promoted integrity in FDIC internal operations through ongoing
OIG Hotline referrals and coordination with FDIC management.



Strategic Goal 6 - OIG Internal Processes: Build and
Sustain a High-Quality OIG Staff, Effective Operations,
OIG Independence, and Mutually Beneficial Working
Relationships
To ensure effective and efficient management of OIG resources, among
other activities, we continued realignment of the OIG investigative
resources with FDIC regions, by reassigning Office of Investigations
staff, advertising, and filling vacancies. We also conducted Virtual Work-
force training for all OIG staff to foster an office-wide understanding of
issues related to implementing and carrying out a successful telework
program. Further, we conducted a project to upgrade the OIG’s audit
and evaluation tracking system and undertook an associated review of
how we are using TeamMate as we conduct audits and evaluations to
better leverage that technology and ensure efficiency in our work.
In the interest of ensuring quality and efficiency in our work and opera-
tions, we revised the Office of Audits Policy and Procedures Manual to
address changes in the performance audit standards and process changes
deemed advisable as a result of an internal assignment management
review and external peer review results. We also awarded a contract to
a qualified firm to provide audit and evaluation services to the OIG to
enhance the quality of our work and the breadth of our expertise. We
took steps to better track and contain costs associated with audits and
evaluations in the interest of economy and efficiency. We continued
use of the OIG’s end-of-assignment feedback forms to provide staff
with input on performance of individual audit and evaluation assign-
ments and incorporated suggested improvements to the form. We also
implemented a new IG feedback form for audit and evaluation assign-
ments that focuses on overall assignment quality elements, including
time, cost, and value. With respect to our investigative operations,
we conducted quality control reviews of the OIG’s Hotline program,
headquarters offices, and the Southwest and Midwest regions.




50
We encouraged individual growth through professional develop-
ment by way of initiatives such as revising career development plans
to better align them with OIG goals and integrating training plans
for OIG staff in the career development plans, continuing the OIG
mentoring program, advertising multiple expressions of interest for
forensic accountants to assist investigators in conducting financial
institution fraud cases, offering opportunities for OIG staff to attend
graduate schools of banking, and sponsoring two interns and a
senior executive service candidate from another federal agency.
Our office continued to foster positive stakeholder relationships by way
of IG and other OIG executive meetings with senior FDIC executives;
presentations at Audit Committee meetings; congressional interaction;
coordination with financial regulatory OIGs, other members of the IG
community, other law enforcement officials, and the U.S. Government
Accountability Office (GAO). The IG assumed the role of Chair of the Audit
Committee of the President’s Council on Integrity and Efficiency, and
in that capacity is a leader in the federal audit community. Members of
the OIG Employee Advisory Group held quarterly meetings with the IG,
the OIG participated in corporate diversity events, and we maintained
and updated the OIG Web site to provide easily accessible information
to stakeholders interested in our office and the results of our work.
In the area of enhancing OIG risk management activities, we continued
efforts to carry out and monitor the OIG’s FY 2008 business planning
process, including holding meetings to assess progress, and planned
for FY 2009, including meeting internally and externally to discuss
significant activities and risks within the Corporation and the financial
services industry, with particular attention to the unparalleled events in
the economy and financial services sector over the past several months.
We also participated regularly at corporate meetings of the National
Risk Committee to monitor emerging risks at the Corporation and tailor
OIG work accordingly. In accordance with the Reports Consolidation
Act of 2000, we assessed the most significant management and perfor-
mance challenges facing the FDIC, and provided this assessment to
FDIC management for inclusion in the Corporation’s performance and
accountability report. We submitted the OIG’s 2007 Assurance State-
ment to the FDIC Chairman, in accordance with the annual require-
ment under which the OIG provides assurance that the OIG has made
a reasonable effort to meet the internal control requirements of the
Federal Managers’ Financial Integrity Act, OMB A-123, and other key
legislation. We also prepared for our 2008 statement. At GAO’s request,
we provided the OIG’s perspectives related to internal fraud risk at the
FDIC in connection with GAO’s responsibility under Statement of Auditing
Standards No. 99, Consideration of Fraud in Financial Statement Audits.
From an internal OIG perspective, we focused much attention on emer-
gency preparedness, contingency planning, and continuity of operations
to ensure OIG employee safety and to mitigate risks posed by any threats
to our people and our mission.




                                                                          51
Quantitative Performance Measures 2008
                                                                                                        FY 2008               FY 2008
                                 Performance Measure                                                                                                     Status
                                                                                                         Target                Actual
    Financial Benefit Returna                                                                             100%                 2078%                       Met
    Other Benefits  b
                                                                                                          100%                  100%                       Met
    Past Recommendations Implemented              c
                                                                                                          95%                    99%                       Met
    Audit Reports Issued                                                                                    20                    20                       Met
    Evaluation Reports Issued                                                                               10                    10                       Met
    Audit Assignments Completed Within 30 days of Established Final Report
                                                                                                          90%                    94%                       Met
    Milestone
    Evaluation Assignments Completed Within 30 days of Established Final
                                                                                                          90%                    70%                    Not Met
    Report Milestone
    Audit Assignments Completed Within 15 Percent of Established Budget                                   90%                    88%              Substantially Met
    Evaluation Assignments Completed Within 15 Percent of Established
                                                                                                          90%                    80%              Substantially Met
    Budget
    Investigation Actionsd                                                                                 120                   409                       Met
    Closed Investigations Resulting in Reports to Management, Convictions,
                                                                                                          80%                    85%                       Met
    Civil Actions, or Administrative Actions
    Investigations Accepted for Prosecution Resulting in Convictions, Pleas,
                                                                                                          70%                    67%              Substantially Met
    and/or Settlements
    Investigations Referred for Prosecution or Closed Within 6 Months of
                                                                                                          85%                    93%                       Met
    Opening Case
    Closing Reports Issued to Management within 30 days of Completion of
                                                                                                          100%                  100%                       Met
    all Judicial Actions

a
 	 Includes all financial benefits, including audit-related questioned costs; recommendations for better use of funds; and investigative fines, restitution, settlements,
	 and other monetary recoveries divided by OIG’s total fiscal year budget obligations.
b
 	 Benefits to the FDIC that cannot be estimated in dollar terms which result in improved services; statutes, regulations, or policies; or business operations and
	 occurring as a result of work that the OIG has completed over the past several years. Includes outcomes from implementation of OIG audit/evaluation
	 recommendations.
	 Fiscal year 2006 recommendations implemented by fiscal year-end 2008.
c


d
 	 Indictments, convictions, informations, arrests, pre-trial diversions, criminal non-monetary sentencings, monetary actions, employee actions, and other
	 administrative actions.




52           52
Reporting Requirements
	           Index of Reporting Requirements - Inspector General Act
	           of 1978, as amended



    Reporting Requirements                                                                                    Page
    Section 4(a)(2): Review of legislation and regulations                                                           54
    Section 5(a)(1): Significant problems, abuses, and deficiencies                                             9-39
    Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies             9-39
    Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective                    54
    action has not been completed
    Section 5(a)(4): Matters referred to prosecutive authorities                                                     8
    Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                        58
    Section 5(a)(6): Listing of audit reports                                                                        56
    Section 5(a)(7): Summary of particularly significant reports                                                9-39
    Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value          57
    of questioned costs
    Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value          58
    of recommendations that funds be put to better use
    Section 5(a)(10): Audit recommendations more than 6 months old for which no management                           58
    decision has been made
    Section 5(a)(11): Significant revised management decisions during the current reporting period                   58
    Section 5(a)(12): Significant management decisions with which the OIG disagreed                                  58




                                                                                                                      53
Information Required by the
Inspector General Act of 1978,
as Amended



     Review of Legislation and Regulations
     It is the responsibility of the OIG Office of Counsel to review, pursuant to
     Section 5(a) of the Inspector General Act, pending and enacted legislation and
     regulations relating to programs and operations of the FDIC. In this regard,
     Counsel’s Office has been following the status of various bills relating to the
     changing landscape of the financial industry as well as legislation pertaining
     to the Inspector General community at large. Our review of the Emergency
     Economic Stabilization Act of 2008; the Housing Reform Act legislation; H.R.
     6639, the Federal Agency Performance Review and Efficiency Act; and H.R.
     928, the Inspector General Reform Act, has continued throughout the semi-
     annual period. In conjunction with the PCIE, Counsel’s Office monitored
     S.789 and H.R. 1395, the Government Credit Card Abuse Prevention Act of
     2008, and S. 3474, the FISMA Act of 2008, and coordinated comments with
     other Inspector General offices. Additionally, Counsel’s Office developed, and
     submitted to Congress, statutory language that ultimately became Section
     126 of the Emergency Economic Stabilization Act, prohibiting misuse of the
     FDIC name or symbol or misrepresentation as to FDIC-insured status.




     Table I. Significant Recommendations from Previous
     Semiannual Reports on Which Corrective Actions Have Not
     Been Completed
     This table shows the corrective actions management has agreed to implement
     but has not completed, along with associated monetary amounts. In some
     cases, these corrective actions are different from the initial recommendations
     made in the audit reports. However, the OIG has agreed that the planned
     actions meet the intent of the initial recommendations. The information in this
     table is based on (1) information supplied by FDIC’s Office of Enterprise Risk
     Management (OERM) and (2) the OIG’s determination of closed recommenda-
     tions for reports issued after March 31, 2002. These two recommendations
     from two reports involve improvements in operations and programs. OERM
     has categorized the status of these recommendations as follows: Management
     Action in Process.




54
Table I (continued): Significant Recommendations from Previous Semiannual Reports on Which
Corrective Actions Have Not Been Completed
                                                           Significant                Brief Summary of Planned Corrective
    Report Number, Title & Date                            Recommendation             Actions and Associated Monetary
                                                           Number                     Amounts
    Management Action In Process
    06-025                                                 3t                         Develop a written plan that defines a
    Controls for Monitoring Access to                                                 risk-based, enterprise-wide approach
    Sensitive Information Processed by                                                to audit logging and monitoring for the
    FDIC Applications                                                                 FDIC’s portfolio of information systems.
    September 29, 2006
    AUD-08-003                                             1n                         Clarify guidance to examiners on
    FDIC’s Implementation of the                                                      the identification and reporting of
    USA PATRIOT Act                                                                   apparent customer identification
    November 30, 2007                                                                 program (CIP) violations, including
                                                                                      the consideration of supplemental
                                                                                      procedures and forms and whether
                                                                                      transaction testing is a necessary basis
                                                                                      for citing apparent CIP deficiencies.
t
    	 The OIG has received some information but has requested additional information to evaluate management’s actions in response
	     to the recommendation.
n
    	 The OIG is reviewing management’s actions in response to the recommendation.




                                                                                                                                    55
Table II: Audit Reports Issued by Subject Area
                      Audit Report                                   Questioned Costs      Funds Put to
 Number and Date                        Title                      Total     Unsupported    Better Use
 Supervision
 AUD-08-011              DSC’s Examination Assessment
 July 7, 2008            of Interest Rate Risk
 AUD-08-012              FDIC’s Examination of Liquidity
 July 30 , 2008          Risk
 AUD-08-014              FDIC’s Controls Over the CAMELS
 August 12, 2008         Rating Review Process
 Receivership Management
 AUD-08-015              Protection of Resolution and
 September 2, 2008       Receivership Data Managed
                         or Maintained by an FDIC
                         Contractor
 AUD-08-018              FDIC’s Receivership Service
 September 23, 2008      Billing Process
 Resources Management
 AUD-08-010              Controls Over Background
 July 2, 2008            Checks of Child Care Provider
                         Personnel
 AUD-08-013              Controls for Protecting the
 August 12, 2008         Confidentiality of Sensitive Email
                         Communications
 AUD-08-016              Controls Over Contractor
 September 17, 2008      Payments for Relocation Services
 AUD-08-017              FDIC’s Controls Over Contractor
 September 22, 2008      Invoice Approval, Payment, and
                         Posting to the General Ledger
 AUD-08-019              Reliability of Supervisory Infor-
 September 25, 2008      mation Accessed Through the
                         Virtual Supervisory Information
                         on the Net (ViSION) System
 AUD-08-020              Independent Evaluation of the
 September 26, 2008      FDIC’s Information Security
                         Program - 2008
 Totals for the Period                                        $0           $0              $0




56
Table III: Evaluation Reports and Memoranda Issued
        Evaluation Reports and Memoranda                                Questioned Costs           Funds Put
                                                                                                    to Better
  Number and Date                         Title                      Total        Unsupported          Use
EVAL-08-005               Energy Efficiency of the
September 24, 2008        FDIC’s Virginia Square Facility
                          and Information Technology
                          Data Center
EM-08-003                 Opportunities for Indepen-
June 18, 2008             dent Review of Information
                          Technology Projects
EM-08-004                 Contingency Planning for
August 1, 2008            Large-Scale Resolution
                          Activity
N/A                       Memorandum: High-Level
September 23, 2008        Controls Review at IndyMac
                          Federal Bank, FSB Conserva-
                          torship
Totals for the Period                                       $0                  $0                $0

Table IV: Audit Reports Issued with Questioned Costs
                                                                                     Questioned Costs
                                                  Number
                                                                                 Total          Unsupported
A. For which no management decision has been                     0                   0                  0
	 made by the commencement of the reporting
	 period.
B. Which were issued during the reporting period.                0                   0                  0
Subtotals of A & B                                               0                   0                  0
C. For which a management decision was made                      0                   0                  0
	 during the reporting period.
	 (i) dollar value of disallowed costs.                          0                   0                  0
	 (ii) dollar value of costs not disallowed.                     0                   0                  0
D. For which no management decision has been                     0                   0                  0
	 made by the end of the reporting period.
	 Reports for which no management decision                       0                   0                  0
	 was made within 6 months of issuance.




                                                                                                                57
Table V: Audit Reports Issued with Recommendations for Better Use of Funds
                                                                                Number         Dollar Value
 A. For which no management decision has been made by the                          0                 0
 	 commencement of the reporting period.
 B. Which were issued during the reporting period.                                 0                 0
 Subtotals of A & B                                                                0                0
 C. For which a management decision was made during the reporting                  0                 0
 	 period.
 	 (i) dollar value of recommendations that were agreed to by                      0                 0
 		 management.
 		- based on proposed management action.                                          0                 0
 		 - based on proposed legislative action.                                        0                 0
 	 (ii) dollar value of recommendations that were not agreed to by                 0                 0
 		 management.
 D. For which no management decision has been made by the end of the               0                 0
 	 reporting period.
 	 Reports for which no management decision was made within 6 months               0                 0
 	 of issuance.

Table VI: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management
decisions.

Table VII: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.

Table VIII: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.

Table IX: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.




58
                                        Congratulations and
                                        Farewell
                                        	
                                        	
                                        	 President’s Council on Integrity and
                                        	        Efficiency Awards
                                        Three OIG teams, representing the Office of Audits, Office of Investigations, and Office of
                                        Evaluations, received PCIE Awards for Excellence at the PCIE Annual Awards Ceremony on
                                        October 21, 2008.


Award for Excellence: Audit                              Award for Excellence:
In recognition of excellence in auditing                 Investigation
the FDIC’s controls over a $357 million                  In recognition of outstanding efforts in the
infrastructure services contract                         investigation of the failure of the Oakwood
Duane H. Rosenberg, Senior                               Deposit Bank Company, Oakwood, Ohio
Audit Specialist                                         Brian D. Fearn, Special Agent, IRS CID, Cleveland
Jill Benham, Auditor                                     Field Office
Judith H. Hoyle, Information Technology                  Jason E. Tarnowski, Chief Enforcement Examiner,
Auditor-in-Charge                                        Federal Reserve Bank, Cleveland
Lien K. Nguyen, Information Technology                   Jeffrey M. Paul, Special Agent, IRS CID, Cleveland
Specialist                                               Field Office
Mark F. Mulholland, Deputy AIG for Audits                Jennifer R. Taylor, U.S. Department of Justice Trial
                                                         Attorney, Criminal Division, Washington, D.C.
Rhoda L. Allen, Audit Specialist
                                                         John T. Crawford, Special Agent, FDIC
Rhonda Bunte, Audit Specialist                           OIG Investigations--Eastern Region
                                                         Thomas J. Bailey, Special Agent,
                                                         FBI, Cleveland Division
                                                         Thomas A. Karol, Assistant United
                                                         States Attorney, Northern District
                                                         of Ohio, Western Division
                                                         William E. Day, III, Assistant United
                                                         States Attorney, District of South
                                                         Carolina, Florence Division
                                                         This investigation involved the coor-      Matt Alessandrino, John Crawford, IG Jon
Mark Mulholland, Duane Rosenberg, Rhoda Allen,
                                                         dination of multiple federal agencies Rymer, and Jason Tarnowski
Rhonda Bunte, IG Jon Rymer, Judith Hoyle, Lien
Nguyen, Rus Rau (not pictured, Jill Benham)              investigating three related multi-million
                                                         dollar frauds with plea and trial prosecutions
The audit team employed a number of                      of five subjects in the Northern District of Ohio
innovative audit techniques to identify key              and the District of South Carolina. Ultimately
areas of risk in an interagency IT infrastruc-           the five subjects were sentenced to a total of
ture services contract, defined and assessed             over 40 years in prison and ordered restitution
the contract’s governance structure and                  in the amount of over $106 million. The group’s
key controls, engaged other Federal                      relentless dedication and teamwork in pursuing
auditors to examine selected invoices                    this matter resulted in bringing justice to those
submitted by the main contractor and                     responsible for the failure of Oakwood Deposit
two of its subcontractors that significantly             Bank Company, a 99-year-old bank, and added
enhanced audit efficiency, and employed                  strength to the nation’s banking system through
a very effective reporting format for                    the improvement of the examination process.
presentation to the FDIC’s Chairman, Audit
Committee, and Chief Information Officer.                                                                                                      59
Edward M. Gentry, Robert L. Wellons, IG Jon Rymer, Steve
Beard, and Margaret Wolf

Award for Excellence:                           Retirements
Evaluation                                      The OIG congratulates two former members of the office who retired after distinguished
In recognition of excellence in                 federal careers.
evaluating a critical FDIC insurance            Sara Gibson retired after nearly 30 years       Theresa Fewell retired after more than 25
determination system                            of federal service. Her                         years of federal service. She
Edward M. Gentry, Deputy                        career began in 1977                            began her career at the
AIG for Evaluations                             at the Department of                            Department of Agriculture
                                                the Treasury, where she                         OIG in 1983 and moved
Margaret B. Wolf, Auditor-in-
                                                held temporary student                          on to the FDIC OIG in May
Charge, Office of Evaluations
                                                appointments with                               1990, where she served
Robert L. Wellons, Audit                        the Bureau of the Mint,                         in Counsel’s Office for
Specialist, Office of Audits                    served in various admin-                        18 years until her retire-
The team’s work had a strong and                istrative positions at                          ment. Theresa provided
immediate impact on the Claims                  the Office of the Comp-                         invaluable administrative
Administration System project’s                 troller of the Currency, and later became an    support to FDIC OIG Counsel throughout
development. In response to the                 inspector in the Department of the Trea-        her tenure. She was instrumental in main-
team’s report, the FDIC made                    sury’s OIG. She then spent nearly 4 years       taining Counsel’s records, establishing
changes to the leadership and                   at the General Accounting Office (now           Counsel’s subpoena system, and devel-
composition of the project team,                the Government Accountability Office) as        oping its Workflow system. She also served
refocused the project on critical               a criminal investigator and transferred to      as timekeeper for a number of component
functionality needed for insurance              the Resolution Trust Corporation (RTC) in       offices in the OIG. When the IG or Deputy IG
determinations, and re-evaluated                September 1990 as a senior criminal inves-      needed additional administrative support,
an in-house model under consid-                 tigator. At the RTC’s sunset, Sara was reas-    Theresa stepped up to help. She also
eration. As a result of these                   signed to the FDIC OIG as a senior criminal     coordinated with individuals throughout
corrective actions, the FDIC has                investigator. She later served as the FDIC’s    the Corporation on behalf of the OIG on
put in place a contingency model                Deputy Assistant Inspector General for          countless administrative matters and
and processes that will enable                  Investigations and was Assistant Inspector      willingly volunteered to assist with office
the Corporation to accomplish                   General for Investigations at the time of her   projects and activities such as the semian-
large or multiple bank insurance                retirement.                                     nual report distribution, diversity events,
determinations that otherwise                                                                   the Combined Federal Campaign, and
                                                Sara was instrumental in building and culti-
may not have been possible.                                                                     office-wide meetings and conferences.
                                                vating positive and constructive working
This capability, established in                 relationships with FDIC senior manage-
large part because of the excel-                ment, her FDIC OIG colleagues, others in
lent work done by the evaluation                the IG community, and fellow law enforce-
team, is crucial in light of the                ment professionals. Largely as a result
turmoil in the current economic                 of Sara’s tireless efforts and outstanding
environment and the volatile                    leadership, the FDIC OIG is now a preemi-
state of the banking industry.                  nent law enforcement organization and
                                                a leader in combating financial institu-
                                                tion fraud and other criminal activity.
60                                                                                                                              60
